     Department of Homeland Security
     2IÀFH RI ,QVSHFWRU *HQHUDO


TSA’s National Deployment Force – FY 2012 Follow-Up




OIG-13-14                             December 2012
                          OFFICE 01<' INSPECfOR GENERAL
                              Department of Homeland SO;X;urity



                                    December 4, 2012


MEMORANDUM FOR:               Christopher l. McLaughlin
                              Assistant Administrator for Security Operations
                              Transportation Security Administration                      ,

FROM:                         Deborah l. Outten-Mills  I-~t.-L 01, ~"- -A</lb
                              Acting Assistant Inspector General for Inspections

SUBJECT:                      TSA's National Deployment Force - FY 2012 Follow-Up

Attached for your action is our final report, TSA's Notional Deployment Force - FY 2012
Follow-Up. We incorporated the formal comments from the Transportation Security
Administration (TSA) in the final report.

The report contains six recommendations aimed at improving TSA's National
Deployment Force. Your office concurred with all recommendations. As prescribed by
Department of Homeland Security Directive 077-1, follow-Up and Resolutions for the
Office of Inspector General Report Recommendations, within 90 days ofthe date ofthis
memorandum, please provide our office with a written response that includes your
(1) ilgreement or disagreement. (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendations.

The OIG considers Recommendations 1, 2, 4, and 5 resolved and open. We consider
Recommendations 3 and 6 closed. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that
we may dose the recommendation(s). The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions.

Consistent with our responsibility under the ln5pector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Jacqueline Simms,
Lead Inspector, at (202) 254-4051.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Review ................................................................................................................ 5

              Total Costs for NDF Deployments to Airports ........................................................ 5
              Recommendation.................................................................................................... 8
              Management Comments and OIG Analysis ............................................................ 8

              NDF TSOs Were Consistently Used for Local Hiring Shortfalls in Alaska ................ 8
              Recommendation.................................................................................................. 13
              Management Comments and OIG Analysis .......................................................... 13

              NDO Standard Operating Procedures Have Been Updated and Communicated to
              TSA Personnel ....................................................................................................... 14
              Recommendations ................................................................................................ 19
              Management Comments and OIG Analysis .......................................................... 19

              Communicating Operating Procedures Between NDO and Airport Field Staff.... 21

              NDF Personnel Selection Criteria.......................................................................... 21

              Frequency of NDF Supervisory Transportation Security Officer Deployments.... 22

              Update on Prior OIG Recommendations .............................................................. 22

   Appendixes
              Appendix A: Objectives, Scope, and Methodology............................................ 23
              Appendix B: Management Comments to the Draft Report ............................... 24
              Appendix C: National Deployment Office Organizational Chart FY 2012 .......... 32
              Appendix D: Total Costs for NDF Deployments to Airports ............................... 33
              Appendix E: Reasons for NDO Deployments to Airports ................................... 44
              Appendix F: Total NDF Operational Costs for Alaska......................................... 57
              Appendix G: Alaska Airports Using NDO Support Most Frequently for Hiring
                           Shortages by Fiscal Year................................................................ 59
              Appendix H: Alaska Hub and Spoke Airports ..................................................... 61
              Appendix I: Alaska’s Retention Initiatives ......................................................... 62


www.oig.dhs.gov                                                                                                                OIG-13-14
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


           Appendix J: NDF Support Request Approval Process........................................ 65
           Appendix K: OIG Analysis of Recommendations from The Transportation
                       Security Administration’s National Deployment Force,
                       April 2008 ....................................................................................... 67
           Appendix L: Major Contributors to This Report................................................. 73
           Appendix M: Report Distribution......................................................................... 74

   Abbreviations
           AAC                 Assistant Area Coordinator
           AC                  Area Coordinator
           ASF                 Alaska Screening Force
           BMO                 Business Management Office
           DHS                 Department of Homeland Security
           DPOC                Deployment Point of Contact
           FSD                 Federal Security Director
           FTE                 fullͲtime employee
           FY                  fiscal year
           MD                  Management Directive
           NDF                 National Deployment Force
           NDO                 National Deployment Office
           NSF                 National Screening Force
           OHC                 Office of Human Capital
           OIB                 Operational Improvement Branch
           OIG                 Office of Inspector General
           OLC                 Online Learning Center
           OSO                 Office of Security Operations
           PASS                Performance Accountability and Standards System
           PC&B                Personnel Compensation and Benefits
           PDS                 Post Deployment Summary
           POC                 Point of Contact
           RD                  Regional Director
           RTD                 returnͲtoͲduty
           SOO                 Screening Optimization Office
           SOP                 standard operating procedure
           SPP                 Screening Partnership Program
           SRF                 Support Request Form
           SSS                 Staffing and Scheduling Section
           STI                 Security Training Instructor
           STSO                Supervisory Transportation Security Officer
           TSA                 Transportation Security Administration


www.oig.dhs.gov                                                                                                     OIG-13-14
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security
           TSO    Transportation Security Officer
           TSOV   Transportation Security Officer Volunteer
           VIPR   Visible Intermodal Prevention and Response




www.oig.dhs.gov                                                OIG-13-14
                          OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Executive Summary
   This report is the result of a June 2011 letter from Congressman John L. Mica, U.S. House of
   Representatives, requesting that we provide updated information on our 2008 report,
   Transportation Security Administration’s National Deployment Force. The Transportation
   Security Administration’s (TSA) National Deployment Force officers support airport screening
   operations during emergencies, seasonal demands, severe weather conditions, or increased
   passenger activity requiring additional screening personnel above those normally available
   to airports. In addition, officers may support other TSA functions as described in table 1 of
   our report.

   Congressman Mica asked that we provide information relating to (1) all costs associated with
   National Deployment Office deployments; (2) all expenditures for deployments to Glacier
   Park International Airport, Yellowstone Airport, Missoula International Airport, Bert Mooney
   Airport, and Springfield Branson National Airport; (3) when, where, and why the National
   Deployment Force has been deployed; (4) National Deployment Force standard operating
   procedures; (5) the process used for selecting Transportation Security Officers; (6) the
   number and frequency of supervisory deployments; and (7) the progress TSA has made in
   implementing recommendations from our 2008 report.

   Total costs for deployments to airports in fiscal years 2009, 2010, and 2011 were
   $24,067,587, $29,467,112, and $30,389,779, respectively. Since our 2008 report, TSA has
   developed a financial system to track and document programͲrelated costs; established
   processes to determine the criteria and priority for deployment decisions; implemented
   procedures that facilitate documentation needed to support deployment decisions; and
   either established or updated standard operating procedures relating to key deployment
   functions.

   Our review showed that TSA was overly reliant on its deployment force to fill chronic staffing
   shortages at airports in Alaska. We also determined that screeners’ equipment certifications
   were not updated, requests for National Deployment Force support did not always include
   the type of screening equipment in use at the requesting airport, and costͲbenefit analyses
   and assessments of alternatives to hiring shortages were not routinely conducted and
   documented as part of the deployment decisionͲmaking process.

   We recommended that TSA (1) develop and implement a strategy to minimize the use of
   National Deployment Force staff for hiring shortfalls, (2) develop a process for maintaining
   current and accurate screener equipment certifications, (3) designate a section on the
   request form for National Deployment Force support to identify the screening equipment
   used at the requesting airport, and (4) develop procedures to ensure that costͲbenefit
   analyses and alternative hiring assessments are conducted and documented on a consistent
   basis.


www.oig.dhs.gov                                1                                          OIG-12-14
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   Our review of the National Deployment Office (NDO) responds to concerns raised by
   Congressman John L. Mica that the National Deployment Force (NDF) is used “primarily
   to fill staffing gaps caused by low attendance and high attrition.” In his June 9, 2011,
   letter, Congressman Mica requested information related to (1) NDO deployment and
   operating costs, (2) NDF overtime, (3) reasons for NDF deployments, (4) updated NDF
   operating procedures, (5) the selection process for NDF staff, (6) the frequency of
   deployments for supervisors, and (7) the status of TSA’s efforts to implement
   recommendations in our prior OIG report.

   TSA is responsible for passenger and checked baggage screening operations. Within
   TSA, Federal Security Directors (FSDs) supervise approximately 50,000 Transportation
   Security Officers (TSOs) who conduct screening operations at more than 450 commercial
   airports nationwide.

   In November 2002, TSA established a Mobile Screening Force to support the initial
   deployment of Federal screeners to commercial airports and respond to other shortͲ
   term operational needs. The Mobile Screening Force was created to meet TSA’s legal
   requirement to screen 100 percent of baggage and passengers at all commercial
   airports at a time when TSO resources were at less than required levels. The Mobile
   Screening Force consisted of TSOs who were temporarily assigned from their home
   airports to airports that were in transition from private to federalized screening
   operations.

   In 2003, the Mobile Screening Force became a permanent mobile screening unit and
   was renamed the National Screening Force (NSF). NSF provided support to airports for
   reasons such as severe weather conditions, heightened security requirements, natural
   disasters, or increased passenger activity requiring additional screening personnel.

   In November 2006, as part of TSA’s Office of Security Operations (OSO), NDO was
   designated to manage the NDF, formally known as the NSF.

   In April 2007, TSA transferred administrative support functions for NDF TSOs to their
   airport of record. NDO retained responsibility for program management, processing
   and approval of requests for deployment, and travelͲrelated support functions.




www.oig.dhs.gov                                2                                      OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   As of June 2012, NDO continues to plan, coordinate, manage, and direct the deployment
   of NDF TSOs and other TSA personnel in support of screening requirements that exceed
   airport staffing levels.1 NDO provides approximately 350 TSOs, Transportation Security

   Officer Volunteers (TSOVs), and other OSO operations personnel to support airports
   that require personnel resources above those normally available to FSDs.2 In addition,
   NDF provides assistance with other TSA functions as identified in table 1.

   NDO recruits TSOs from airports throughout the country for NDF. To be selected, TSOs
   must earn a high technical proficiency score and performance evaluation at their home
   airport. NDF TSO candidates must also be sponsored by their FSD.

   FSDs who require NDF TSO support must submit Support Request Forms (SRFs) to NDO.
   The SRF describes the reasons for potential deployments, required personnel, and
   estimated deployment costs. Each SRF goes through a formal approval process involving
   a chain of stakeholders within OSO. NDO deploys TSOs based on approved SRFs.




   1
    NDO’s organizational chart is shown in Appendix C.
   2
    Transportation Security Officer Volunteers are TSOs who volunteer for deployments that usually last less
   than 31 days.


www.oig.dhs.gov                                        3                                              OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




       Table 1. Reasons for NDO Deployments
         Reasons for Deployment                            Description
                                      For airports that cannot meet personnel needs for
                                      regular daily operations, including airports that—
        Local Hiring Shortfalls           x Operate below staffing allocations,
                                          x Need a TSO of a specific rank or gender, or
                                          x Continue to experience hiring challenges.
        Seasonal Support              For seasonal support during peak months.
        Screening Partnership         To provide support until private contractors are
        Program (SPP) Support         available for screening duties.
                                      To support deployments for categories such as
        Risk Mitigation
                                      special events and Visible Intermodal Prevention
        Operations
                                      and Response (VIPR) team requirements.
                                      For new equipment rollouts, Inline Baggage System
        Equipment Support
                                      projects, Project Reveal, and training requirements.
        Crisis Response               To respond to environmental and manmade
        Deployments                   disasters.
                                      To address unforeseeable medical issues, expanded
        Other Mission                 services, or other staffing shortages considered
        Requirements                  justifiable by Regional Directors that do not fall into
                                      any other category.
                                      To support new initiatives or projects, such as
        Pilot Projects
                                      Behavioral Detection Officer operations.
                                      To meet the requirement to keep NDF Officers at
        Home Porting
                                      their home airport to support airport operations.
                                      To support deployments to TSA laboratories for
        Laboratory Support
                                      testing new equipment and screening procedures.
           Source: TSA.




www.oig.dhs.gov                                4                                         OIG-13-14
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Results of Review
           Total Costs for NDF Deployments to Airports

           Since our 2008 review, NDO has established procedures to improve
           accountability over deployment resources, and has developed a decisionͲmaking
           process that defines the criteria and priority for handling requests for screener
           assistance. Program managers responsible for overall NDO operations are able
           to monitor employees’ length of deployment.

           NDO has developed a financial tracking system that captures total deployment
           costs for NDF TSOs. These costs include transportation, lodging, meals,
           incidentals, rental vehicles and fuel, and personnel compensation and benefits
           (PC&B).

           We examined financial data and expenditures from NDO and TSA’s Business
           Management Office (BMO) to determine the deployment costs of NDF TSOs to
           airport locations. For fiscal years (FYs) 2009 to 2011, we identified expenses
           related to (1) the deployment of NDF TSOs, (2) overtime pay attributed to NDF
           TSOs, and (3) deployment costs for five airports identified by Congressman Mica.

           The total NDO costs were $47,326,203 for FY 2009, $45,087,478, for FY 2010,
           and $32,942,523 for 2011 for all activities as described in table 1. NDF
           deployment costs to airports for FYs 2009, 2010, and 2011 totaled $24,067,587,
           $29,467,112, and $30,389,779, respectively, as shown in table 2. Appendix D
           provides a detailed breakdown of NDF deployment costs by airport.
                                                                      3
           Table 2. Total Costs for NDF Deployments to Airports
                      Cost Category                 FY 2009           FY 2010        FY 2011
              Meals and Incidental Expenses        $3,060,768       $4,199,089     $4,024,640
                          Lodging                  5,045,078         5,850,624      6,584,574
                          Airfare                  1,243,019         1,442,957      1,373,251
                  Rental Vehicle and Fuel           488,224          775,029         778,439
                                      4
                     Estimated PC&B                14,230,498       17,199,413     17,628,875
                  Total Deployment Costs          $24,067,587      $29,467,112     $30,389,779
           Source: TSA.

   3
     Airport costs are expenditures associated with NDF TSOs’ deployment to airports to perform screening
   functions.
   4
     TSA’s Business Management Office estimated PC&B costs by computing an average salary and benefit
   amount for TSO positions.


www.oig.dhs.gov                                       5                                             OIG-13-14
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              NDF Overtime Costs at Airports

              NDO policy prohibits NDF TSOs from exceeding 10 hours of overtime within a
              week, or 20 hours of overtime within a pay period. TSOs and airport managers
              explained that working overtime is not common, and is done on an asͲneeded
              basis. NDF TSOs added that airports usually offer local TSOs any overtime duties
              before making requests to NDF TSOs.

              NDO is responsible for allocating overtime pay to all NDF TSOs who are deployed
              or homeͲported at their home airport.5 NDO officials said that prior approval
              from a supervisor at either the deployment or home airport is required for NDF
              TSOs to work overtime. Table 3 shows the total amount of overtime paid to NDF
              TSOs who were deployed in FYs 2009, 2010, and 2011.

               Table 3. NDF Overtime Costs at Airports
                            Fiscal Year                             Overtime Costs
                               2009                                  $1,007,329
                               2010                                      899,153
                               2011                                      762,970
                               Total                                  $2,669,452
               Source: TSA.


              NDF Deployment Costs for Specific Airports

              As requested, we provided NDF deployment costs and related information for
              Glacier Park International Airport, Yellowstone Airport, Missoula International
              Airport, Bert Mooney Airport, and Springfield Branson National Airport. Bert
              Mooney and Yellowstone used NDF support in FYs 2009 and 2010, and only
              Yellowstone used NDF support in 2011, as shown in table 4.

              Table 4: Total Deployment Costs for Bert Mooney and Yellowstone Airports
                                     Bert Mooney Airport            Yellowstone Airport
                                     Reason: Local Hiring        Reason: Seasonal Support
                                Days        Deployment Costs    Days       Deployment Costs
                FY 2009          91             $250,350         122           $231,537
                FY 2010          54              136,248         116             230,935
                FY 2011           ͲͲ                             126             244,155
                Total Costs                     $386,598                       $706,627
               Source: TSA.




   5
       HomeͲporting occurs when TSOs perform screening services at their home airport for up to 90 days.


www.oig.dhs.gov                                         6                                             OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Reasons for NDF Deployments

           NDO routinely deploys NDF TSOs to provide screening support for hiring
           shortfalls, seasonal peaks, special security events, disaster response, and other
           demands. Since our 2008 review, NDO has developed a tracking system that
           captures specific information for each deployment, including (1) reasons for
           deployment, (2) deployment dates and duration, (3) names of airports receiving
           NDF support, and (4) the number of TSOs deployed. Appendix E shows all NDF
           TSO deployments for each fiscal year, including the deployment duration, and
           reasons for deployments.

           We also obtained tracking system data for NDF deployments in FYs 2009, 2010,
           and 2011. In FY 2009, 109 deployments were made to 83 airports. These
           deployments included 335 NDF TSOs and 23 TSOVs. In FY 2010, there were 166
           deployments to 125 airports, which included 314 NDF TSOs and 30 TSOVs. In FY
           2011, there were 155 deployments to 117 airports, which included 311 NDF
           TSOs and 26 TSOVs.

           Assessments of Hiring Solutions Need To Be Conducted and Documented
           Consistently

           NDF deployment data for FYs 2009, 2010, and 2011 showed that hiring shortfalls
           were the most common reason for NDF TSO support, accounting for 22 percent,
           31 percent, and 47 percent, respectively, of total NDF TSO deployments. The
           NDO FSD Guide addresses specific requirements that apply when a request for
           NDF TSO support results from a staffing shortfall. These requirements include
           (1) a description of a plan and timeline to resolve hiring deficiencies and (2) a
           determination of the airport’s appropriate use of staffing resources, the extent
           to which it is pursuing local hiring options, and alternative hiring solutions.

           TSA provided examples of hiring solution assessments. However, these
           assessments were not always conducted for each NDF request for support that
           was based on staffing shortfalls.

           Our review confirmed that NDO has established a deployment analysis and
           decisionͲmaking process that engages stakeholders, and considers actions taken
           by FSDs to resolve staffing shortfalls. However, to track actions taken to resolve
           staffing shortfalls, TSA needs to ensure that these assessments are conducted
           and documented consistently.




www.oig.dhs.gov                                 7                                       OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation

           We recommend that the Assistant Administrator for Security Operations:

           Recommendation #1:

           Develop a process and assign responsibility for ensuring that assessments of
           alternatives to hiring shortages are conducted and documented as directed by
           the NDO FSD Guide.

           Management Comments and OIG Analysis

           We evaluated CBP’s written comments and have made changes to the report
           where appropriate. A summary of TSA’s written responses to our
           recommendations and our analysis of the responses follow each
           recommendation. A copy of TSA’s response, in its entirety, appears in
           appendix B.

           TSA Response: TSA concurred with Recommendation 1.

           TSA plans to implement this recommendation by the second quarter of 2013.
           This effort will be accomplished through the Regional Director structure and the
           use of the Support Request Form.

           OIG Analysis: This recommendation will remain resolved and open pending our
           receipt of TSA’s process for conducting and documenting assessments of
           alternatives to hiring shortages, and ensuring that such assessments are
           conducted.

           NDF TSOs Were Consistently Used for Local Hiring Shortfalls in Alaska

           Our analysis of NDO deployment data for FYs 2009, 2010, and 2011 showed that
           airports in Alaska were among the most frequent users of NDF support for hiring
           shortfalls. TSA officials explained that these airports experience persistent hiring
           and retention challenges, and rely heavily on NDF to offset staffing shortfalls.

           NDF TSO operational costs include airfare, lodging, per diem, and rental vehicles.
           These costs are in addition to the amounts TSA pays for using NDF TSOs for
           hiring shortfalls in place of permanently hired TSOs. For FYs 2009, 2010, and
           2011, operational costs for deployments to Alaska totaled $3,747,798,




www.oig.dhs.gov                                 8                                        OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
           $5,061,405, and $2,598,844, respectively. Appendix F shows operational costs
           to deploy NDF TSOs to airports in Alaska.

           Total NDO deployment costs include operational costs and PC&B. Of the
           $24,067,587 in total NDF deployment costs for 2009, Alaska accounted for
           $8,545,368 (36 percent). For 2010, Alaska accounted for $10,557,840 (36
           percent) of the total NDO deployment costs of $29,467,112. For 2011, Alaska
           accounted for $5,075,204 (17 percent) of the total NDF deployment costs of
           $30,389,779.

           Figure 1 compares total NDO deployment costs for all airports in Alaska and all
           other U.S. airports using NDF TSOs in FYs 2009, 2010, and 2011.

           Figure 1. Total NDF Deployment Costs for Alaska by Fiscal Year




           Source: TSA.




www.oig.dhs.gov                                      9                                 OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
           Our analysis was based on the total number of deployments for hiring shortfalls
           to airports in Alaska, the length of each deployment, and the number of fullͲtime
           employees (FTEs) deployed. Appendix G shows the Alaska airports with the
           highest use of NDF support for local staffing shortages.

           Hiring and Retention Challenges in Alaska Need To Be Addressed

           Alaska has three hub airports—Anchorage, Fairbanks, and Juneau—and 19 spoke
           airports, as shown in appendix H. As part of our fieldwork, we visited two hub
           airports and two spoke airports in Alaska.

           FSD Concerns

           FSDs in Alaska expressed frustration over significant challenges to hire locally,
           and provided the following reasons for recurring requests for NDF support:

           x      High cost of living;
           x      Lack of available and affordable housing;
           x      Remote village lifestyle, culture, and isolation;
           x      Inability of Federal benefits to attract local Alaska Natives;
           x      Harsh weather conditions;
           x      Difficulty for local hires to obtain security clearances;
           x      TSOs transfer when they complete eligibility requirement after working at
                  the location for 60 days;
           x      PartͲtime and split shifts are not appealing to TSO candidates; and
           x      Availability of higher paying jobs before the TSA hiring process is completed.

           In March 2012, FSDs in Alaska provided the following staffing scenarios that
           describe the results of local hiring difficulties:

           x      Over a 6Ͳmonth period, 13 TSOs left a hub. Nine left for better paying jobs,
                  two for jobs with equal pay and better shifts, and two failed to complete
                  their onͲtheͲjob training.
           x      Seven candidates accepted TSO positions, completed certification, and
                  transferred to larger airports within 60 days.
           x      The attraction of TSA jobs has waned. The hub can attract only up to eight
                  candidates a year, many of whom cannot meet TSA’s basic hiring criteria.

           According to FSDs in Alaska, retaining the current TSA workforce and attracting
           new hires to backfill losses is becoming increasingly difficult. Specifically, (1) the




www.oig.dhs.gov                                   10                                        OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
           labor supply is dwindling, (2) the cost of living is skyrocketing, and (3) TSA wages
           are falling behind those of its competitors.

           TSO Concerns

           For Alaska deployments, NDF TSOs were knowledgeable of information in NDO
           policy about enduring “exposures to widely different environmental conditions,
           climates, changes in altitudes, and areas that may affect allergies.” NDF TSOs
           must agree with these requirements before accepting positions with NDO.

           In March 2012, local TSOs deployed to a remote spoke airport in Alaska provided
           TSA officials with written accounts of living conditions that were more extreme
           than those described in NDO policy. One airport location was referred to as “a
           desolate pit of apathy in the middle of a barren wasteland.” During our
           fieldwork, local TSOs and NDF TSOs provided similar details while we observed
           TSO living and working conditions. A synopsis of TSO statements follows.

           x      Living conditions and hardships have been far worse than imagined;
           x      Housing issues include mold, bedbugs, frozen pipes, and sewer line seepages;
           x      Airport sewage lines have frozen repeatedly, preventing use of restrooms
                  and drinking water;
           x      TSOs cannot shower, wash dishes, do laundry, or use toilets when pipes in
                  their homes are frozen;
           x      Food is extremely expensive—for example, a gallon of milk costs $10, and a
                  loaf of bread nearly $6;
           x      The town does not have sufficient food when severe weather causes
                  shipping interruptions;
           x      The cost of housing causes financial difficulties;
           x      The high crime rate creates fear for personal safety;
           x      Regulations prevent local TSOs from using TSA vehicles for basic errands,
                  whereas NDF TSOs have access to vehicles;
           x      Taxi fares to commute to and from work cost more than $100 a week;
           x      Local TSOs walk to and from work in horrendous weather conditions, when
                  snowdrifts and extreme temperatures make walking dangerous;
           x      Local TSOs perceive NDF TSOs’ daily per diem plus salaries as preferential
                  treatment, which has a negative effect on local TSO morale; and
           x      Other Federal, State, and local agencies provide or assist with quality housing
                  for their employees.




www.oig.dhs.gov                                   11                                       OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
           Considerations for Reducing Hiring and Retention Challenges

           FSDs in Alaska described various local hiring initiatives that were intended to
           address difficulties in recruiting and retaining employees in their locations.
           These initiatives, shown in appendix I, included the Alaska Screening Force (ASF),
           recruitment and retention incentives, and signing bonuses. Although FSDs in
           Alaska have attempted to resolve their local hiring shortfalls, the incentives have
           proven unsuccessful.

           TSOs suggested the following solutions for improving working conditions in
           Alaska and other challenging locations:

           x      Keep the 25 percent retention incentive, along with meals and incidental
                  expenses similar to what NDF TSOs receive;
           x      Double the 25 percent retention incentive;
           x      Provide assistance with housing costs by communicating with other Federal
                  agencies in the area that are assisting their employees with housing;
           x      Provide a recruitment signing bonus of at least $5,000 for a 1Ͳyear
                  commitment;
           x      Allow TSOs to use government vehicles in inclement weather and for routine
                  errands;
           x      Provide vehicle transport assistance for staff to transport their personal
                  vehicles to the deployment site; and
           x      Create a 2Ͳweek rotational schedule that allows local TSOs to work in hub
                  and spoke locations.

           According to TSA officials, the average newly hired TSO receives $31,387 per
           year, which includes costͲofͲliving adjustments and locality pay. With the 25
           percent recruitment and retention incentive approved for specific airports in
           Alaska in September 2007, the starting salary for TSOs working in those airports
           is $39,234 per year.6 TSOs working in one spoke airport receive a 15 percent
           recruitment and retention incentive, with an average starting salary of $36,095
           per year for new hires.7

           While Alaska’s high cost of living and environmental conditions are beyond TSA’s
           control, TSA should aggressively pursue alternatives to reduce local hiring




   6
    Appendix I identifies airports receiving the 25 percent recruitment and retention incentive.
   7
    The 15 percent recruitment and retention incentive is paid to TSOs who volunteer to accept a 1Ͳyear
   assignment to rotate to the Deadhorse/Prudhoe Bay spoke airport.


www.oig.dhs.gov                                      12                                              OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
           shortages and dependence on NDF support. Increased emphasis should be
           placed on the unique challenges and needs affecting Alaskan airports in order to
           develop and implement a more costͲeffective process for staffing airports in
           challenging geographical areas.

           Recommendation

           We recommend that the Assistant Administrator for Security Operations:

           Recommendation #2:

           Develop and implement a strategy to reduce hiring difficulties and improve
           retention. At a minimum, this effort should include an assessment of quality
           housing alternatives, additional pay incentives and bonuses, and transportation
           considerations.

           Management Comments and OIG Analysis

           TSA Response: TSA concurred with Recommendation 2.

           With regard to pay incentives, TSA Management Directive 1100.57Ͳ3,
           Recruitment, Relocation, and Retention Incentives, May 27, 2008, establishes the
           Agency’s process for FSDs to request a recruitment or retention incentive.
           Currently, a few airports in Alaska have a TSO retention incentive in place. These
           incentives were part of a more extensive retention incentive that applied to
           other airports but subsequently was phased out because retaining the incentives
           could no longer be justified. However, the justification for the Alaska airport
           incentives is still valid. TSA reviews pay incentives annually to determine if the
           additional monies are justifiable and necessary to retain covered staff. In an
           effort to be more efficient, TSA will conduct a higherͲlevel review for frequent
           and extended duration NDO requests submitted by each location during the
           NDO review process. If the higherͲlevel review results in a recommendation to
           review eligibility for the Recruitment, Relocation, and Retention Incentives, the
           airport will be notified.

           Assessing quality housing alternatives is a challenge that TSA faces in several
           locations, including Alaska. In Alaska, TSA is competing against rapid expansion
           of the oil and natural gas drilling industries, and there are also remote locations
           with limited populations, infrastructure, and growth. TSA has been leveraging
           input from current employees in these communities to help identify potential
           housing options for its prospective new hires. Recognizing that this approach




www.oig.dhs.gov                                 13                                        OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
           may not be sufficient, TSA will extend outreach to other Federal agencies in an
           effort to leverage housing options used by others in these same locations. For
           example, the Federal Aviation Administration has housing arrangements in
           Bethel, Alaska, for its employees. However, other Federal agencies also have
           statutory authority to implement housing alternatives or to allocate monies for
           this purpose through appropriation provisions. Nonetheless, it is an avenue that
           TSA will pursue.

           Regarding transportation assistance, airports currently are able to request such
           assistance (e.g., paid or subsidized parking expenses for its employees). At
           airports where public transportation exists, employees are eligible to participate
           in the Federal transit subsidy program; however, employees may not participate
           in the transit program and receive a parking subsidy as well. The issue of
           transportation assistance is also one of the 11 topics negotiated with the
           American Federation of Government Employees, the exclusive representative for
           identified positions in the TSO workforce. As this provision is part of the terms
           being presented to the workforce for ratification, it would be inappropriate to
           discuss those terms in this response.

           OIG Analysis: This recommendation will remain resolved and open pending our
           receipt of TSA’s process for developing and implementing a strategy for
           assessing quality housing alternatives and improving retention.

           NDO Standard Operating Procedures Have Been Updated and Communicated
           to TSA Personnel

           Since our prior report, NDO has established additional standard operating
           procedures (SOPs) to provide administrative and operational guidance to NDF
           TSOs and airport staff. These SOPs include the NDO Handbook for NDF Officers,
           NDO FSD Guide, and NDO Transportation Security Officer Volunteers (TSOV)
           Guide. Each SOP was updated in December 2011 and distributed to NDO and
           airport personnel. NDO has also established procedures to ensure that NDO and
           airport personnel are notified about policies and procedures that provide
           assistance in performing their duties and responsibilities.

           NDO Handbook for NDF Officers

           The NDO Handbook for NDF Officers includes administrative and operational
           policies and procedures for TSOs in areas such as the following:

           x      Standards for retention, recruitment, and release of NDF TSOs;
           x      Deployment assignment processes;



www.oig.dhs.gov                                  14                                    OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
           x      Performance Accountability and Standards System (PASS) process that
                  documents TSO performance during multiple deployments;
           x      TSO training procedures to ensure that requirements for recertification can
                  be achieved during deployments; and
           x      Standards for time and attendance, overtime, and travel.

           The NDO Handbook for NDF Officers also includes new and updated sections for
           performance assessments, annual retention processes, employee recognition
           guidelines, and online screening equipment sustainment reporting.

           NDO formed a workgroup in 2011 to facilitate annual handbook revisions. The
           workgroup was composed of NDF TSOVs, NDF Lead Transportation Security
           Officers, and Deployment Points of Contact (DPOCs) who analyzed and
           incorporated comments received from field personnel.

           NDO FSD Guide

           The NDO FSD Guide, initially published in June 2008, provides guidance to FSDs
           and their staff concerning the following:

           x      NDO functions, responsibilities, and procedures;
           x      Deployment guidelines;
           x      NDO field leadership structure;
           x      NDF officers recruitment, retention, and release; and
           x      PASS.

           NDO Transportation Security Officer Volunteers (TSOV) Guide

           NDO TSOVs volunteer for deployments and supplement NDO TSOs. However,
           NDO TSOVs do not deploy on short notice for indefinite periods.

           Since our 2008 report, TSA developed the NDO Transportation Security Officer
           Volunteers (TSOV) Guide, dated December 2011. This guide provides
           instructions to NDF TSOVs in the following areas:

           x      The NDO deployment process;
           x      FSD administrative support for temporary duty officers;
           x      Standards for government travel and communication;
           x      PASS; and
           x      Requirements for time and attendance reporting.




www.oig.dhs.gov                                  15                                      OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
           Additional Guidance Needed in NDO SOPs

           We identified specific aspects of the deployment decisionͲmaking process that
           were not addressed in NDO SOPs. These included a requirement to identify
           screening equipment on SRFs, and guidance for conducting costͲbenefit analyses.

           Screening Equipment at Requesting Airports Needs To Be Identified

           The NDO FSD Guide provides instructions to FSDs requesting NDF TSO assistance
           on how to complete the SRF. The instructions include a requirement to identify
           specific equipment on the SRF. However, FSDs have not consistently identified
           the type of screening equipment in use at their airport. Since NDF TSOs are not
           certified or qualified on all types of screening equipment, NDO may not have all
           of the data needed to match an NDF TSO’s qualifications with the equipment
           used at the requesting airport. Appendix J describes the process for requesting
           NDF support.

           NDO officials explained that SRFs do not always identify the types of equipment
           used at the requesting airport. When this occurs, NDO must contact the airport
           for equipment information, which adds an unnecessary step in the approval
           process. Only a few of the SFRs we reviewed included the equipment in use at
           requesters’ airports.

           We were informed of instances in which NDF TSOs were unfamiliar with the
           equipment used at that airport. If airport staff are unable to train NDF staff
           onsite, NDF TSOs may be assigned to screening operations other than those
           requested on the SRF.

           Although there is a requirement to identify screening equipment at the
           requesting airport, the SRF does not include a designated section for such
           information. Identifying the equipment would alert FSDs to provide equipment
           information, and also assist NDO officials in making more informed deployment
           decisions.

           CostͲBenefit Analyses Guidance Needs To Be Developed

           The NDO FSD Guide specifies that the SRF review and approval process should
           include costͲbenefit analyses. TSA’s Staffing and Scheduling Section (SSS)
           determines whether airports are appropriately using all personnel resources,




www.oig.dhs.gov                                16                                       OIG-13-14
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
              while the Office of Human Capital (OHC) evaluates whether airports are
              adequately pursuing all local hiring options to resolve staffing shortfalls.8 After
              SSS and OHC complete their evaluations, the Regional Director (RD) makes the
              final determination for all SRFs.

              Officials from SSS, OHC, and several RDs explained that they conduct informal
              costͲbenefit analyses by reviewing deployment costs and making decisions based
              on those results. The focus of their review is to determine whether deployment
              costs justify using NDF TSOs for staffing shortages, or whether an alternate
              means should be considered. However, costͲbenefit analyses performed by SSS
              and OHC were not consistently documented on the SRF. In addition, RDs said
              that specific guidance on how to assess costͲbenefit analyses when evaluating
              deployment requests had not been provided.

              NDO needs to establish a process to ensure that costͲbenefit analyses are
              conducted and documented consistently on the SRF. In addition, guidance
              should be developed for analyzing all information to be used in making the final
              determination on deployment requests. These efforts would increase the level
              of accountability and provide a tracking process for deployment decisions.

              Challenges for Equipment Certifications Need To Be Addressed

              The NDO Handbook for NDF Officers directs NDF TSOs to maintain their dualͲ
              function equipment certifications. DualͲfunction equipment certification
              pertains to NDF TSOs who operate both passenger and baggage screening
              equipment. TSOs can achieve this certification by working a minimum of one
              rotation per pay period on screening equipment they are certified to operate,
              whether in a deployed status or at their home airport. However, we identified
              challenges for NDF TSOs to maintain their screening equipment certifications.

              To ensure the retention of dual certifications, NDO requires NDF TSOs to
              complete returnͲtoͲduty (RTD) requirements if unable to operate their home
              airport’s screening equipment after 14 days, and submit biweekly sustainment
              forms to verify that they operated specific equipment. TSA established three
              levels of training prerequisites for TSOs if they have not met the requirements
              for operating their home airport’s screening equipment before the 14Ͳday RTD
              obligation.




   8
       The Workforce Utilization Group has been renamed the Staffing and Scheduling Section.


www.oig.dhs.gov                                        17                                      OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
           x      Level I: TSOs who have not operated equipment for 15 to 90 days must
                  review SOP updates and operational directives, complete all training related
                  to TSO functions that occurred while they were absent, and review locally
                  published bulletins before returning to duty.

           x      Level II: TSOs who have not operated equipment from 91 to 365 days must
                  complete all Level I requirements and successfully complete all tests for
                  checkpoint and checked baggage certification before returning to duty.

           x      Level III: TSOs who have not operated equipment for more than 365 days
                  must again complete the New Hire Training Program and pass all requisite
                  examinations and onͲtheͲjob training before returning to duty.

           TSA officials explained that when NDF TSOs are deployed to airports that do not
           operate the same equipment as their home airports, it can be difficult for them
           to retain their equipment certifications, since they are not operating the
           equipment they are certified to use. Airport and NDO managers said that often
           when NDF TSOs’ deployment location has the same equipment as their home
           airport, limited personnel resources and time constraints may prevent them
           from sustaining their certifications while deployed.

           In January 2011, NDO revised the maximum 90Ͳday deployment duration to 85
           days. An NDO official said that reducing the number of deployment days to 85
           gives NDF TSOs 5 days to return to their home airport to complete their RTD
           obligations.

           To facilitate maintenance of NDF TSO equipment certifications, NDO has
           established a mobile Security Training Instructors (STI) pilot program. NDO staff
           explained that the intent of the STI program is to ensure that NDF TSOs maintain
           their Location of Record equipment certifications during deployments. STIs will
           travel to airports throughout the United States to provide instruction to NDF
           TSOs who need equipment certifications and recertifications.

           NDO has three STIs who will be trained and deployed to airports throughout the
           country. An NDO official said that NDO is in the process of hiring three additional
           STIs. Although the STI program is in the pilot phase, we conclude that it is a
           positive step in ensuring that NDF TSOs maintain the required certifications.




www.oig.dhs.gov                                  18                                      OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
           Recommendations

           We recommend that the Assistant Administrator for Security Operations:

           Recommendation #3:

           Revise the Support Request Form to include a section where Federal Security
           Directors can identify the types of screening equipment that National Deployment
           Force Transportation Security Officers will operate during the deployment.

           Recommendation #4:

           Develop standardized procedures for TSA’s Staffing and Scheduling Section and
           Office of Human Capital to conduct, review, and document costͲbenefit analyses
           on the Support Request Form consistently.

           Recommendation #5:

           Develop guidance for Regional Directors on how to assess SSS and OHC’s costͲ
           benefit analysis as part of their decisionͲmaking process for NDF support
           requests. This guidance should include a requirement that Regional Directors
           document their assessment of the costͲbenefit analysis on the Support Request
           Form.

           Recommendation #6:

           In the absence of a final decision regarding the Security Training Instructors Pilot
           Program, ensure that TSA has a process to maintain screeners’ equipment
           certifications and recertifications for National Deployment Force Transportation
           Security Officers.

           Management Comments and OIG Analysis

           TSA Response: TSA concurred with Recommendation 3.

           On April 17, 2012, the NDO updated the NDO SRF to incorporate a dropͲdown
           box identifying all equipment used at the airports (see attachment). FSDs are
           now able to quickly identify personnel equipment certification requirements.
           The change was disseminated to the NDO Airport Points of Contact (POC) this
           summer at three Regional NDO Airport POC training sessions (Chicago on




www.oig.dhs.gov                                 19                                        OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
           June 13–14, Boston on July 17–18, and San Diego on August 7–8). Additionally,
           an NDO Broadcast message was released to the NDO Airport POCs on August 16,
           2012 (see attachment). TSA recommends that this recommendation be closed.

           OIG Analysis: TSA provided additional documentation supporting its response to
           this recommendation, which is now considered closed.

           TSA Response: TSA concurred with Recommendation 4.

           TSA’s Staffing and Scheduling Section will prepare a formal documented process
           for completing the costͲbenefit analysis needed for evaluating NDO requests.
           This documented process will be completed through collaboration with the
           Office of Human Capital and the NDO, with approval by the Director of Mission
           Performance and the Director of Field Operations. TSA plans to implement this
           recommendation by the second quarter of 2013.

           OIG Analysis: This recommendation will remain resolved and open pending our
           receipt of TSA’s documented process for completing costͲbenefit analyses for
           evaluating NDO requests.

           TSA Response: TSA concurred with Recommendation 5.

           TSA will incorporate the Staffing and Scheduling Section’s costͲbenefit analysis
           results into the SRF. TSA is also developing guidance documents and other tools
           to ensure that Regional Directors are able to assess costͲbenefit analyses. TSA
           also plans to update the SRF to require RDs to document their costͲbenefit
           analysis on the SRF. TSA plans to implement this recommendation by the second
           quarter of 2013.

           OIG Analysis: This recommendation will remain resolved and open until TSA
           provides documentation to support its guidance to RDs for assessing and
           documenting SRF costͲbenefit analyses.

           TSA Response: TSA concurred with Recommendation 6.

           The 2012 NDO Security Training Instructor initiative has been completed. An
           additional three STIs will be added to the current NDF STI workforce (six total)
           during the 2013 NDO recruitment cycle.

           The following process was established to assist NDF Officers in retaining
           equipment certifications:




www.oig.dhs.gov                                20                                       OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
           The process begins with each new NDF Officer upon joining the NDO Program. A
           full review of the Officer’s Online Learning Center (OLC) record is conducted to
           ensure that it is complete. The process involves the NDF Officer and his or her
           home Airport Training Manager/Specialist providing information to assist NDO
           training personnel in completing the review of the NDF Officer OLC record. The
           OLC record is the official TSA record for each NDF Officer. Once the OLC record
           review is complete, this information is backed up in the NDO Training database
           for each NDF Officer. At the end of each biweekly pay period, NDF Officers
           submit their sustainment tracking information to NDO Training. This information
           assists with verification and currency (when equipment was last worked and any
           required training) of their equipment certifications. The NDO Program then uses
           the NDF Officer screening equipment certification information to help meet the
           FSD support request for NDF Officer assistance at the hub or spoke airports. TSA
           recommends that this recommendation be closed.

           OIG Analysis: TSA provided additional documentation supporting its response to
           this recommendation which is now considered closed.

           Communicating Operating Procedures Between NDO and Airport Field Staff

           To improve information sharing between NDO and airport personnel, NDO uses
           iShare, the webͲbased TSA information system, to transmit information
           regarding program activities. TSA and NDOͲrelated information is transmitted
           through bulletins, guidelines, and SOPs on the website. TSA personnel can also
           post questions, concerns, and documents to support and facilitate TSO
           administrative and operational duties to airports. Additionally, NDO and airport
           personnel have access to email accounts, phone calls, and meetings for the
           exchange of NDOͲrelated information.

           NDF Personnel Selection Criteria

           The NDO FSD Guide and NDO Handbook for NDF Officers describe the process for
           NDF deployment selections. As requests for NDF support are received, NDO
           considers the following primary factors in selecting and assigning NDF staff for
           deployment:

           x      The number of days an officer has been deployed within the past 365 days;
           x      Deployment rank and gender requirements;
           x      Training and skills necessary to complete the mission; and
           x      NDF staff who are available to deploy.




www.oig.dhs.gov                                  21                                     OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
           In March 2012, we observed the process used to select NDF staff for deployment.
           Our observation confirmed that NDF assignments were made in accordance with
           TSA established guidance.

           Frequency of NDF Supervisory Transportation Security Officer Deployments

           Supervisory Transportation Security Officers (STSOs) may be used for
           deployments, and are considered the primary team lead when deployed. If
           needed, STSOs may also be required to perform nonsupervisory screening
           functions assigned by the FSD while deployed.

           According to NDO data, 41 STSOs were deployed in FY 2009, 49 STSOs were
           deployed in FY 2010, and 47 STSOs were deployed in FY 2011.

           Update on Prior OIG Recommendations

           Our April 2008 report, The Transportation Security Administration’s National
           Deployment Force, included six recommendations for NDO to strengthen its
           financial management systems, deployment procedures, and information
           sharing with NDF TSOs and airport personnel.

           The corrective action plans submitted by TSA to resolve our recommendations
           included (1) developing a financial management tracking and reporting system;
           (2) implementing a deployment analysis process; (3) improving the transparency
           of deployment assignments; (4) developing a deployment decisionͲmaking
           process engaging affected stakeholders; (5) sharing the NDF Handbook and other
           information with FSDs, NDF TSOs, and other stakeholders through the NDO
           iShare site; and (6) annually reviewing the NDF Handbook to ensure that
           information is current and relevant.

           Based on our analysis of documentation and onͲsite observations, TSA has taken
           action on the six recommendations from our prior review, and each has been
           closed. Recommendations 2 and 4 in this report identify additional actions for
           TSA to strengthen assessments of hiring shortfalls and costͲbenefit analyses.
           These issues were also identified in our 2008 review.

           Appendix K summarizes each recommendation from our 2008 report, the
           corrective actions taken or proposed by TSA, and OIG’s current analysis of TSA’s
           progress in resolving these recommendations.




www.oig.dhs.gov                               22                                       OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107Ͳ296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We conducted this review in response to a request from Congressman John L. Mica, U.S.
   House of Representatives, to conduct a followͲup review of TSA’s NDF since our initial
   review in 2008. Specifically, we were asked to provide (1) all costs associated with TSA’s
   NDO deployments, including travel expenses and overtime pay; (2) all expenditures for
   deployments to each of five airports identified in his letter; (3) when, where, and why
   NDF has been deployed; (4) NDF SOPs; (5) the process used to select NDF TSOs; (6) the
   number and frequency of supervisory deployments; and (7) TSA’s progress in
   implementing recommendations from our 2008 report.

   We conducted our fieldwork from January to April 2012 at TSA headquarters and six
   airports supported by NDO. We visited four airports in Alaska (Anchorage, Bethel,
   Kotzebue, and Fairbanks) and two airports in Florida (Fort Myers and Sarasota).

   We interviewed personnel from TSA’s NDO, Business Management Office, Office of
   Human Capital, Staffing and Scheduling Section, and TSA field personnel, to include NDF
   TSOs and FSDs. We analyzed relevant documents pertaining to deployment costs to
   airports, SOPs, and information associated with recruitment and retention incentives.

   We conducted this review under the authority of the Inspector General Act of 1978, as
   amended, and according to the Quality Standards for Inspections issued by the Council
   of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                               23                                       OIG-13-14
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report


                                                                                          u.s. Dop." ...... or H • .,tlond s.....ri.1
                                                                                          6Il1Soutllll ... S ......
                                                                                          Arlill&to .. VA 2O:!SII!
                         SEP £4 2OJ2                                                      Transportation
                                                                                          Security
                                                                                          Administration
                                                          INFORMA nON


                  MEMORANDUM FOR:               Deborah L. Outten-Mills
                                                Acting Assistant Inspe<:tor. General for Inspections
                                                Office of Inspector General
                                                                                          r.1
                                                U.S. Department of Homeland Security (D~~~_

                  FROM:                         Christopher Mclaughlin     AJ.,l11r-- I Wl~(;
                                                Assistant Administrator
                                                Office of Security Operations

                  SUBJECT:                      TSA 's National Deployment Force - FY 2012 Follow-Up




                  This memorandum constitutes the Transportation Security Administration's (TSA) response to
                  the OMS Office ofthe Inspector General (DIG) draft report titled, TSA: 's National Deployment
                  Force - FY 2012 Follow-Up, OIG Project No. 12-0S3-ISP~TSA.

                  Background

                  In April 2008, the DHS OIG conducted a Review of the Transportation Security
                  Administration's National Deployment Force (NDF) (OIG·08·49), providing six
                  recommendations. TSA concurred wilh all six recol11Jl1endations, and in the TSA Director of
                  Audit Liaison memorandum dated September 26, 2008, to the DHS Assistant Inspector General
                  for Inspections, all six recommendations were reported as closed with no further action from
                  TSA.

                  In June 2011, Chairman John L. Mica ofthe U.s. House ofRepresCl1tatives Committee on
                  Transportation and Infrastructure requested that DHS OlG provide updated information on DHS
                  DIG's 2008 report, Transportation SeC14rity Administration's Nalional Deployment Farce. DHS
                  DIG initiated its follow-up review on December 28, 2011.

                  Discussion

                  DHS CIG's review reflected TSA's development of a financial system to track and document
                  program-related costs, established processes to determine the criteria and priority for deployment
                  de<:isions, implemented procedures that facilitate documentation needed to support deployment




                                                                                                                                   I




www.oig.dhs.gov                                                   24                                                                    OIG-13-14
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security



                                                             ,, ',
                                                                                                                     2

                  . decisions, and either established or updated standard operating procedures relating to key
                    deployment functions.

                   DHS OIG made six additional m:ommendations to further improve TSA and TSA's NDF
                   program. TSA concurs with DHS OIG's re<:ommendations and, as discussed further below, has
                   already begun implementing some ofDHS OIG's recommendations.

                   TSA appreciates the opportunity to provide feedback to DHS OIG on its draft findings and
                   recommendations.

                   Reco mmendation Ill : Develop a process and assign responsibility for ensuring that assessments
                   ofaltematives to hiring shortages are conducted and documented as dire<:ted by th e NDO FSD
                   Guide.

                   TSA concurs. TSA plans to implement this m:ommendation by the se<:ond quarter of2013.
                   This effort will be accomplished through the Regional Director structure and the use of the
                   Support Request Form (SRF).

                   Recommend ation 112: Develop and implement a strategy to reduce hiring difficulties and
                   improve retention. At a minimum, this effon should include an assessment of quality housing
                   alternatives, additional pay incentives and bonuses, and transportation considerations.

                   TSA conCUN. With regard to pay incentives, TSA Management Directive 1100.57-3,
                   Recrui/mefl/. Relocation, and Reten/ion Incentives, May}7, 2008 establishes the Agenc;y's
                   process for Federal Security Directors (FSDs) to request a recruitment or retention incentive.
                   Currently, there are a few airports in Alaska that have a retention incentive in place for
                   Transportation Security Officers (TSOS). These incentives were part of a more extensive
                   retention incentive that applied to other airports but was subsequently phased out because
                   retaining the incentives could no longer be justified. However, the justification for the incentives
                   in the Alaska airports is still valid. TSA reviews pay incentives on an annual basis to delennine
                   if the additional monies are justifiable and necessary to retain covered staff. In an effort to be
                   more efficient, TSA will conduct a higher-level review for frequent and extended duration NOO
                   requests submitted by each location during the NDO review process. Iflhe higher-level review
                   results in a recommendation to review eligibility for the Recrui/ment, Relocation. and Relen/ion
                   Incentives, that notification will be made to the airport.

                   With regard to assessing quality housing alternatives, this is a challenge that TSA faces in
                   several locations, including Alaska. In Alaska, the Agency is competing against rapid expansion
                   of the oil and natural gas drilling industries, and there are also remote locations with limited
                   populations, infrastructure, and growth. TSA has been leveraging input from current employees
                   in these communities to assist with identifying potential housing options for its prospective new
                   hires. Reco&nizing that this may not be sufficient, TSA will extend outreach to other Federal
                   agencies in an effort to leverage housing options used by others in these same locations. For
                   Cl(ample, the Federal Aviation Administration (FAA) has housing arrangements in Bethel,
                   Alaska, for ils employees. However, we have to keep in mind that other Federal agencieS have




www.oig.dhs.gov                                                      25                                                   OIG-13-14
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                                                                                                                        l


                  statutory authority to implement housing alternative!; or have authority through appropriation
                  provisions to allocate monit!! for this purpose. Nonetheless, it is an avenue that TSA will pursue.

                  Regarding transportal ion assistance, airports cUlTently have the ability to request such assistance
                  (e.g., paid or subsidized parking expenses for its employees), At airports where public
                  transportation exists, employees are eligible to partidpate in th e Federal transit subsidy program;
                  however, employees may not participate in the transit program and receive a parking subsidy.
                  The issue of Iran sport ali on assistance is also one of the 11 topics negotiated with the American
                  Federation ofGovemment Employees (AFGE), the exclusive representative for ident ified
                  positions in the TSO workforce. As this provision is part of the terms being presented to the
                  workforce for ratification, it would be inappropriate to discuss those terms in this response.

                  Recommendation 113: Revise the Support Request Form to include a section where Federal
                  Security Directors can identify the types ofsereening equipment National Deployment Force
                  Transportation Security Officers will operate during the deployment.

                                  On April 17,2012, the National Deployment Office (NOO) updated the NOO
                                       drop-down box identifying all equipment used at the airports (see
                  attaclunent).               able to quickly identify persormel equipment certification
                  requirements. The change was disseminated to the NOO Ai!pOrt Points of Contact (POC) this
                  summer at three Regional NDO Airport POC training sessions (Chicago on Ju ne 13-14, Boston
                  on July 17-18, and San Diego August 7-8). Additionally a NOO Broadcast message was released
                  to the NDO Airport POCs on August 16, 2012 (see attachment). TSA recommends that this
                  recommendation be closed.

                   Recommendation 114: Develop standardized procedures for TSA's Staffing and Scheduling
                  'Section and Office of Human Capital to consistently conduct, review, and document cost-benefit
                   analyses on the Support Request Fonn.

                  TSA concurs. TSA Staffing & Scheduling Section will prepare a formal documented process
                  for completing th e cost-b<:nefit needed for evaluating NOO requests, This documented process
                  will be completed through collaboration with the Office of Human Capital (OHC) and the NDO,
                  with approval by the Director of Mission Performance and the Director ofField Operations.
                  TSA plans to implement this recommendation by the second quaner of2013.

                  Recommendation 115: Develop guidance for Regional Directors on how to assess Staffing and
                  Scheduling Section and OHC's cost-benefit analysis as part of their decision-making process for
                  NDF support requests. This guidance should include a requirement that Regional Directors
                  document theiT assessment of the cost-benefit analysis on the Support Requ est Form.

                  TSA concurs. TSA will incorporate Staffing & Scheduling Section cost-benefit analysis results
                  into the SRF. TSA is also developing guidance documents and other tools to ensure Regional
                  Directors (RD) are able to assess the cost-benefit analyses. TSA also plans to update the SRF to
                  require RDs to document their cost-benefit analysis on the SRF. TSA plans to implement this
                  recommendation by the second quarter of2013.




www.oig.dhs.gov                                                    26                                                       OIG-13-14
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                                                                                                                   4




                  Reco mmendation #6: In the absence ofa final decision regarding the Se<;urity Training
                  Instructors Pilot Program, ensure that TSA has a process to maintain screening equipment
                  certifications and recertification for National Deployment Force Transportation Security
                  Officers.
                  TSA -COD curs. The 2012 NDO Security Training Instructor (STI) initiative has been completed.
                  An additional three STTs will be added \0 the current NDF STI workforce (six tOlal) during the
                  2013 NDO recruitment cycle.

                  The following process was establishC(J to assist NDF Officers in relaining equipment
                  certifications:

                  The process begins with each new NDF Officer upon joining the NDO Program. A full review
                  of the Officer's Online Learning Center (OLC) record is conducted \0 ensure it is complete. The
                  process involves the NDF Officer and his or her home Airport Training Manager/Specialist
                  providing information to assist the NDO Training pefSOlUlel in completing the review of the
                  NDF Officer OLC re<:ord. The OLe record is the official TSA record for each NOF Officer.
                  Once the OLC record review is completed this information is.backed up in the NDO Training
                  database for each NOF Officer. At the end of each bi-weekly pay period, ND F Officers submit
                  their sustainment tracking information to NDO Training. The sustainmen t jnformation assists
                  with verification imd currency (when equipment was last worked and any requ ired training),of
                  their equipment cert ifications. The NOF Officer screening equipment certification information is
                  then used by the NOO Program in helping meet the FSD support request for NOF Officer
                  assistance at the hub or spoke airports. TSA recommends that this recommendation be closed.

                  Attachments




www.oig.dhs.gov                                                  27                                                    OIG-13-14
                                                OFFICE OF INSPECTOR GENERAL
                                                           Department of Homeland Security




                                                                                                              N~tlon~r Dilploymllnt Officil

                                                                                                SUpport Requilst Form - Cllrtlf\(atlons Tool



                  Too NOO SRF now ~qulrl!'S that aU submitted SRF's Indicate equlplT\l!nt«rtlflc~tlons; that t he
                  locati on will be requlrln, from supportln, Offlcers. Thilsubmitter of the SRF will now accomplish this
                  via a drop down bo.loc~ted on t .... SRF. The cho ices In t .... drop down box Is populated via the
                  NOO.Tl'3lnlnIDatab35l!.

                  ThiS document      serves as a tool to help ind ividuals understand the new functionality.
                     •    The new NCertification- section is highlighted by a red box below.
                           DeploV",,,nt Request Informat,on

                            ......
                           ."                                      . "._.
                          _<....
                          __
                                           r"'_""""""-_~,."
                                                        -Oil
                                                                   COOl •• "" ...
                                                                   _ ' - .•                               · il
                           •.~- ..."



                          ...-__
                           r
                                     ___
                          ._. . ,.............
                                    .,._t_- "".... . :..
                                             c:::::~




                                           .... ---
                                ;-.:::;..~~,.,




                                . -. .---
                          '~--~--

                           _. 1
                               "".......
                                        .......
                                           ~-
                                                _._
                                                       "
                                                .............------
                                                            .. .

                                                         ....... ---
                                                                     d._.. ._1'10.... _ _ ....... _." ....._ . . _0
                                                                               __
                                                                   . 111·....... _

                                                                     .............
                                                                 __.,.....................       .....--_
                                                                                          ....•• ....·


                                                                          ._. -.........--_-.....--
                                                                                                 _.-     ..........     _. _--
                                                                                                                -_............
                                                                                                        .............. -...........
                                                                                                                        -~
                                                                                                                                                 . .._. . .
                                                                                                                                 . ..-._..-....... -. .....
                                                                                                                                                    ~




                           ---
                          _._---
                         The text reads:

                         "IndlCi.'/te below viii the drop down box, all equlpmtmt certiflcat/ons your tllrporr wll/ require.
                         Ust certif/CiltJcns In order of Jm~nce. Note: Dependllll} on t~ demand of equipment
                         certlflation we mtly or m4)' not be able to fill your requestcompietely; howl!' ver, WI!' will work
                         with your airport to develop a ~/nlng plan.
                         To add more than one cfI'fflfiation: Click ' Insert Item' located below ' Equipment "
                         To remove a certification : Highlight the ro w you want to ddete, then click the do wn arrowlO
                         thl!' Il!'ft of the row and se/l!(;t ' Remove CfI'fflficatlon'
                         If a certmcation Is not listed In the drop down box, InclrKk In t~ ' Request Just /f/a<tion"
                         section .•




                                                                                                                              Updotr:d: 4.17.20J2




www.oig.dhs.gov                                                                      28                                                                       OIG-13-14
                                         OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security




                                                                                               National Deployment Offic.e
                                                                                  SUpport Request Form - Ce rtificat ions Tool



                  Add Certificat ions:
                     • To ~dd more than one equipment certiflcatlon click -Insert Item" . It wi ll add another row as




                                               I, notl

                              EQYlpm.nl ,   I~[T " Til. U




                  Remove Certifications:
                        To remove the row; highlight bV eliding anywhere On the row. A box will appear on the left side
                        of the row. Click the "Remove Certifications'".

                             1 ;:~~,,,~.,;b;;.IOW via tha drop do ..... box • • 11 aqulpmant "-rtlficatlon~ vou' alrp o,
                             t:              <artlflc.tlon ... m ay or mav not ba abla to All you .... qua~t com pl
                                                tha n ona aortlfi ... tlon, Click "'n.art ltam " loc"tad b.low "Equlp •
                                             .. ca rtlfic"tlon, HI!i[hlight th . I"Ow yo u ... nt to dalata, than :lIck tha
                                                    I. not II_tad In th. dl"Op down box, Induda in th" "R"qua. t J,




                                   Co!                              clri+x

                                   <.."                             '"'"



                                                                                                              UpdQf~d: 4.17.2012




www.oig.dhs.gov                                                        29                                                          OIG-13-14
                                        OFFICE OF INSPECTOR GENERAL
                                              Department of Homeland Security




                                                                                             National Deployment OffIce
                                                                                SUP90rt Request Form - Certifications TO<)I



                      •   The field cannot be blank; therefore, you must select at lean one certification. If the location
                          does not require any spedfic certillcations they are able to se lect ··No Certifications N~ded ".




                  >   If you should have any operational queslionsor suggestions please feel free to reach out to your
                      NDO field Leadership.

                  >   If you sho uld experience any technical Issues with the NOO Support Request Form please reach out
                      10 NDO.II@tsa.dhs.sov




                                                                                                         UpdoUd:4.JJ.2012




www.oig.dhs.gov                                                      30                                                       OIG-13-14
                                       OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security




                  ffom:             "00   fIrIwIrIV
                                    ,,00 I!rsw!g<!
                  $ubj«:t'          NDO 5<Ipport Roq_     r""" (51\1') 0Iat0ge
                  Dote:             ~,~III.10Il4:Sl:nPM
                  Atudlm"nlS:      SSf Cedifl<Mbn· IpgI   pd!




                  Date: August 16, 2012

                  To: NDF Airport poes


                  From: Mike laVigne

                  Primary POC; NDO Field leadership

                  Subject: NOO Support Request F.orm (SRFj Change

                  Attachment: SRF C.ertiflr;ations·Tool

                  For Your SituatiDnal Awareness On ly


                  The National Deployment Office has modi fied the Support Request Form. The change was effected
                  bv the feedback that we have received from variouS Airport POCs. The modified SRF Is anticipated
                  to e~pedite the approval process and ensure that we are fulfilling your request to the best o f o ur
                  ability.

                  Overview:
                  Airports requesting NDOassistance are now able to spe<:ify what equipment certi fications they will
                  need from Officers deploying to support their airports. This eliminates an unnecessary step o f
                  having to co ntact the requesting airport to gather thiS information. Requesters are now able to
                  select the equipment using a drop down box on                  tmo Support Request Form.

                  Pr ocess;
                  When filnng out the Support Request Form, you w ill select the equipment certifications that you
                  will need from Officers who will be supportil\8 your .irport. Please re member that every airport's
                  make ·up of screening equipment is different. The NDO may not be able to completely fulfi ll the
                  request; however, we will work with the reque<;ting airpor t to develop a training plan If required.
      t           I'm a step-by-step guIde on how to select and insert equipment certifications In the SuPPOrt
                  Request For m, please see the attached tool.




www.oig.dhs.gov                                                              31                                          OIG-13-14
                          OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security




    Appendix C




           Source: TSA.




www.oig.dhs.gov                         32                    OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix D
   Total Costs for NDF Deployments to Airports
    FY 2009 NDF Deployment Costs to Airports
                                                                  Total        Total
                                      FTE         Estimated     Operational Deployment
              Airport*              Deployed        PC&B          Costs        Costs
    Albemarle                           1           $13,233              $0     $13,233
    Albuquerque Int’l. (2)             15             27,764        23,857       51,621
    Aspen (3)                          14           278,538        214,479      493,017
    Atlantic City Int’l.               25             42,757        52,144       94,901
    Baltimore/Washington
    Int’l.                              10           40,589          37,693           78,282
    Barnstable                           4           11,106          11,738           22,844
    Bert Mooney Airport (2)              9          143,085         107,265          250,350
    Bethel Airport (3)                  22          726,346         654,959        1,381,305
    Boise Air Terminal/Gowen
    Field (2)                           19           62,557           39,336         101,893
    Boundary Bay (2)                     8          165,872           99,530         265,402
    Bush Field                           8           17,135           20,334          37,469
    Bush Intercontinental               25           83,795           70,885         154,680
    Cherry Capital                       1            4,998                0           4,998
    Cheyenne (3)                         3           34,983           24,394          59,377
    Cincinnati/Northern
    Kentucky                            15          125,998               0          125,998
    Dawson Community (3)                12          248,129         152,620          400,749
    Dillingham                           5          100,666          94,754          195,420
    Eagle County                        28          869,291         569,166        1,438,457
    Emmet County                         1           16,659               0           16,659
    Fairbanks Int’l.                     8          263,629          75,916          339,545
    Gillette                            10          203,322         167,691          371,013
    Grant County (2)                     2            4,606          10,768           15,374
    Gunnison (2)                        12          226,716         117,228          343,944
    Gustavus                             5           99,635          85,409          185,044
    HartsfieldͲJackson
    Atlanta Int’l.                      24          243,825         132,327          376,152
    Havre City County (3)               30          257,561         171,605          429,166
    Hopkins Int’l.                      14           54,392          45,464           99,856
   *Numbers in parentheses indicate the number of deployments at that particular airport; airports without
   numbers represent one deployment.



www.oig.dhs.gov                                      33                                             OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


    FY 2009 NDF Deployment Costs to Airports
                                                          Total        Total
                                  FTE      Estimated    Operational Deployment
              Airport           Deployed     PC&B         Costs        Costs
    Indianapolis Int’l.             8        $63,320       $10,912      $74,232
    King Salmon                     5        114,918       118,661      233,579
    Kotzebue (2)                   10        333,385       516,974      850,359
    La Plata                        4          24,327       18,927       43,254
    Lewistown Municipal (3)        12        386,982       225,393      612,375
    Lihue                           1          14,438             0      14,438
    Logan Int’l.                   24        387,142       269,004      656,146
    Love Field                     13          39,901       40,276       80,177
    Mammoth Lakes                   7        223,701       211,200      434,901
    Martha’s Vineyard (3)          12        185,175       201,342      386,517
    McCarran Int’l.                 4           9,995       12,167       22,162
    Miami Int’l. (2)                4          13,119       14,422       27,541
    Miles City Municipal (3)       14        344,694       191,508      536,202
    Montrose Regional              12        304,008       151,134      455,142
    Mudhole Smith                   3          29,272       34,243       63,515
    Myrtle Beach                    7        161,853       118,297      280,150
    Nantucket Memorial (2)         18        394,784       409,026      803,810
    Natrona County Int’l.           3          61,161       32,160       93,321
    New Bedford                     6          15,865       13,193       29,058
    Nome (2)                       15        414,858       221,179      636,037
    Norfolk Int’l.                  1          27,051             0      27,051
    North Bend                      1          21,418             0      21,418
    Ogdensburg                      1           3,332         2,849       6,181
    Palm Beach Int’l.              10          65,180         2,196      67,376
    Palm Springs Int’l.            14        373,365       160,426      533,791
    Pittsburgh Int’l. (2)          79          94,705      128,872      223,577
    Port Columbus Int’l.            3           6,733         3,773      10,506
    Provincetown                   2           88,767       65,129      153,896
    Prudhoe Bay/Deadhorse           1           5,950         8,220      14,170
    PullmanͲMoscow Regional
    (2)                            3           33,972       11,929       45,901




www.oig.dhs.gov                                34                                 OIG-13-14
                                   OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    FY 2009 NDF Deployment Costs to Airports
                                                               Total          Total
                                      FTE      Estimated     Operational   Deployment
               Airport              Deployed     PC&B          Costs          Costs
    Reagan National (3)                13         $51,817       $55,086       $106,903
    Richards Field                      1          24,750              0        24,750
    Richland Municipal (4)             20         543,422       320,347        863,769
    Riverton Regional                   1          21,656        13,015         34,671
    Rutland                            1           24,750        14,485         39,235
    San Diego Int’l.                    2          15,231              0        15,231
    San Luis Valley Regional            2          29,286        17,250         46,536
    Sarasota/Bradenton Int’l.           6         123,829       101,350        225,179
    SeattleͲTacoma Int’l. (2)          49          88,502        97,774        186,276
    Sitka                               3          73,113        38,724        111,837
    Southwest Florida Int’l. (2)       20         272,437        55,325        327,762
    Sun Valley                          3          62,113        42,829        104,942
    Sweetwater County (4)               8         194,727       132,739        327,466
    T. F. Green (3)                    22          95,880        23,511        119,391
    Tampa Int’l. (2)                   36          48,950        69,332        118,282
    Ted Stevens Anchorage
    Int’l.                            55        1,880,232      1,245,223     3,125,455
    Tulsa Int’l.                       3           11,185          9,024        20,209
    Wiley Post/Will Rogers (2)        13          562,100        524,997     1,087,097
    Wokal Field/ Glasgow Int’l.
    (3)                               12          279,931       158,913        438,844
    Wolf Point Int’l. (3)             13          241,884       141,548        383,432
    Worland Municipal (5)              5           94,434        65,179        159,613
    Yakutat                            1           27,606        29,042         56,648
    Yampa Valley                      25          663,281       393,649      1,056,930
    Yelland (2)                        2           19,861        10,722         30,583
    Yellowstone                        6          145,644        85,894        231,538
    Yellowstone Regional (2)           2           23,322        18,154         41,476
    TOTALS                                     $14,230,501    $9,837,086    $24,067,587




www.oig.dhs.gov                                   35                                      OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


    FY 2010 NDF Deployment Costs to Airports
                                                          Total        Total
                                  FTE      Estimated    Operational Deployment
               Airport          Deployed     PC&B         Costs        Costs
    Adak Island                     2         $83,373      $63,181    $146,554
    Albemarle (2)                   3          38,560       32,119       70,679
    Albert J. Ellis (2)             8         172,170      106,892      279,062
    Albuquerque Int’l.             10          17,029       15,102       32,131
    Aspen (2)                      10         215,458      161,222      376,680
    Athens                          1           5,036         4,540       9,576
    Baltimore/Washington
    Int’l. (3)                    53          91,993        70,553      162,546
    Barnstable                     3           8,560         9,811       18,371
    Bay County                    13         148,786        88,073      236,859
    Bert Mooney                    4          79,426        56,822      136,248
    Bethel Airport (4)            26         711,141       804,154    1,515,295
    Boise Air Terminal/Gowen
    Field (2)                     9           37,322        20,511       57,833
    Boundary Bay                  2           34,025             0       34,025
    Burlington Int’l.             6           34,269        27,940       62,209
    Bush Field                    8           18,087        29,802       47,889
    Bush Intercontinental         20          18,324        20,124       38,448
    Campbell County (4)            9         229,501       181,837      411,338
    Cherry Capital                1           22,687             0       22,687
    Chicago O’Hare Int’l.          3           4,284         4,191        8,475
    Cincinnati/Northern
    Kentucky (2)                  20         292,464        23,202      315,666
    Columbia Regional              2          22,370        12,446       34,816
    Dallas/Fort Worth Int’l.      26          89,223        41,520      130,743
    Dawson Community               4          75,315        49,698      125,013
    Denver Int’l.                 11          86,147             0       86,147
    Detroit Metro.                 2          16,610        10,217       26,827
    Dillingham                     6         100,581       105,387      205,968
    Dougherty County               1          27,342        23,853       51,195
    Duluth Int’l.                  1          20,456             0       20,456




www.oig.dhs.gov                              36                                   OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


    FY 2010 NDF Deployment Costs to Airports
                                                            Total        Total
                                    FTE      Estimated    Operational Deployment
               Airport            Deployed     PC&B         Costs        Costs
    Eagle County (2)                 39       $980,691      $705,313   $1,686,004
    Elmira/Corning Regional           6          42,176       24,826       67,002
    Emmet County                     1           15,595             0      15,595
    Fairbanks Int’l.                 15         737,396      504,277    1,241,673
    Four Corners Regional            3           34,461       24,322       58,783
    Gallatin Field                    5          83,645       54,894      138,539
    General Mitchell Int’l.           7          43,312       11,469       54,781
    Glynco Jetport                    1          24,709       25,737       50,446
    Gogebic County                    3          23,401       13,356       36,757
    Golden Triangle Regional          2           4,456         2,750       7,206
    Grant County                      1          11,338         3,844      15,182
    GulfportͲBiloxi Int’l.            5          10,858         5,680      16,538
    Gunnison (2)                      8         161,921       84,998      246,919
    Gustavus                          5          83,953       77,828      161,781
    HartsfieldͲJackson Atlanta
    Int’l.                          15         226,921       102,911      329,832
    Harve City County               20          98,854        62,952      161,806
    Helena                           1          19,038             0       19,038
    Indianapolis Int’l.              3           2,207         2,366        4,573
    Jacksonville                     4          36,991             0       36,991
    Jamestown                        1             952           394        1,346
    Joslin FieldͲMagic Valley
    Regional                         5          99,009        70,291      169,300
    Kahului (3)                      2          58,021        52,054      110,075
    King Salmon                      6         110,008       153,159      263,167
    Kotzebue (3)                    21       1,036,742       954,873    1,991,615
    Laramie                         1           25,421        16,336       41,757
    Lewistown Municipal              4          92,567        51,789      144,356
    Liberal Municipal               5          129,037        65,987      195,024
    Lihue                           2           33,428             0       33,428
    Logan Int’l. (3)                43         896,596       593,033    1,489,629
    Los Angeles Int’l.              69         856,411       635,492    1,491,903
    Mammoth Lakes (2)               17         267,335       324,737      592,072
    Martha’s Vineyard                9          66,634        98,630      165,264
    McCarran Int’l.                  1           1,804         1,589        3,393




www.oig.dhs.gov                                37                                   OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


    FY 2010 NDF Deployment Costs to Airports
                                                           Total        Total
                                   FTE      Estimated    Operational Deployment
              Airport            Deployed     PC&B         Costs        Costs
    Meadows Field                    5         $48,405      $36,681      $85,086
    Memphis Int’l.                   1           3,775         2,954       6,729
    Merced Municipal                 1          23,291       21,744       45,035
    Miami Int’l. (2)                12         194,420             0     194,420
    Miles City Municipal             4          50,970       27,559       78,529
    Mineta San Jose Int’l.          25         293,040      210,330      503,370
    Monroe Regional                  2          58,782       18,021       76,803
    Montrose Regional (2)            7         133,111       93,795      226,906
    Mudhole Smith                    2          15,855       16,618       32,473
    Nantucket Memorial (2)           5         107,198      110,628      217,826
    Natrona County Int’l. (2)        7         195,486      144,246      339,732
    Newark Liberty Int’l.           15         451,353      325,440      776,793
    Nome Airport (4)                13         480,597      561,918    1,042,515
    North Bend (3)                  3           75,139             0      75,139
    Oakland Int’l.                   1           1,804         1,661       3,465
    Ogdensburg                       1          $2,856       $2,520       $5,376
    Orlando Int’l.                  43          94,250       46,275      140,525
    OrlandoͲSanford Int’l.          38         146,755       82,314      229,069
    Palm Beach Int’l.                5          99,952             0      99,952
    Palm Springs Int’l. (2)         16         314,930      140,525      455,455
    Pensacola Regional              12         131,577       72,871      204,448
    Petersburg James A.
    Johnson (2)                    4            79,086       58,266      137,352
    Philadelphia Int’l.            11           28,901       29,624       58,525
    Pittsburgh Int’l. (2)          10           24,659        2,220       26,879
    Port Columbus Int’l. (2)       4            31,709        2,220       33,929
    Provincetown                   1            28,759       28,607       57,366
    Pullman Moscow Regional
    (2)                            3            38,216       13,772       51,988
    Reagan National                 2              828          825        1,653
    RenoͲTahoe Int’l.              21          104,791       71,096      175,887
    Richards Field                  1            6,591            0        6,591
    Richland Municipal              5           57,366       36,932       94,298
    Riverton Regional (4)           5          209,496       96,166      305,662




www.oig.dhs.gov                               38                                   OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


    FY 2010 NDF Deployment Costs to Airports
                                                             Total        Total
                                    FTE      Estimated     Operational Deployment
               Airport            Deployed     PC&B          Costs        Costs
    Rutland Airport (2)               2         $25,950       $21,221      $47,171
    San Diego Int’l. (3)             14         136,304          1,011     137,315
    San Luis County Regional          2          31,392        36,700       68,092
    San Luis Valley Regional          2          25,925        15,553       41,478
    Santa Barbara (2)                11          78,608        41,779      120,387
    Santa Maria Public                5          37,760        31,367       69,127
    Sarasota/Bradenton Int’l.         6          89,243        62,772      152,015
    SeattleͲTacoma Int’l. (2)         2           8,068          3,877      11,945
    Sheridan                         1           19,863        13,648       33,511
    Sky Harbor Int’l. (3)            22         237,699        35,235      272,934
    Southwest Florida Int’l.          5          89,271              0      89,271
    Spokane Int’l.                    2           5,471              0       5,471
    Stewart                           3           4,415          2,631       7,046
    Sun Valley                       3           81,310        62,871      144,181
    Sweetwater County (2)             3          46,172        39,154       85,326
    T. F. Green (2)                  17          54,370        52,170      106,540
    Ted Stevens Anchorage
    Int’l.                          54        1,214,477       969,379     2,183,856
    TriͲCities                       5           83,503        33,568       117,071
    TriͲCities Regional              1            9,519             0         9,519
    Tucson Int’l. (2)                2            8,683         5,553        14,236
    Ventura                          1           10,233        12,789        23,022
    Washington Dulles Int’l.
    (2)                             101         439,128       332,531       771,659
    Wendover                         2           43,746        34,161        77,907
    Wiley Post/Will Rogers (3)       18         809,207       792,383     1,601,590
    Wokal Field/Glasgow Int’l.        4         111,722        54,981       166,703
    Wolf Point Int’l.                 4          98,467        56,736       155,203
    Worland Municipal (2)             2          62,520        56,876       119,396
    Yampa Valley                     22         501,401       388,882       890,283
    Yelland                          1           67,143        34,926       102,069
    Yellowstone Airport               6         153,559        77,376       230,935
    Yellowstone Regional (2)          5          55,732        47,729       103,461
    Yuma Int’l.                      2            8,185         4,920        13,105
    TOTALS                                   $17,199,421   $12,267,691   $29,467,112




www.oig.dhs.gov                                39                                      OIG-13-14
                                   OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


    FY 2011 NDF Deployment Costs to Airports
                                                               Total        Total
                                      FTE      Estimated     Operational Deployment
               Airport              Deployed     PC&B          Costs        Costs
    Albemarle                          4           $64,824      $49,619    $114,443
    Albuquerque Int’l.                 13           19,768       18,473       38,241
    Aspen                              9           205,678      222,369      428,047
    Athens                             3            36,588       29,426       66,014
    Baltimore/Washington
    Int’l. (2)                        17          398,218       234,841      633,059
    Barnstable Municipal               2            5,271         7,775       13,046
    Bethel Airport                    17          660,568       796,626    1,457,194
    Boundary Bay (2)                   3           78,342        23,746      102,088
    Buffalo Niagara Int’l.            12          139,374        97,424      236,798
    Bush Field                         4            7,728         8,529       16,257
    Bush Intercontinental             20          226,389       119,859      346,248
    Canyonlands Field                  1           28,122         7,551       35,673
    Charlotte County                   6           68,694        45,494      114,188
    Cheyenne Regional                  1            7,513         5,644       13,157
    Chicago Midway                    10          125,080       102,147      227,227
    Chicago O’hare Int’l.             36          144,956       105,144      250,100
    Chippewa Valley Regional           1            3,956         2,946        6,902
    Cyril E King (2)                   2           57,815        57,843      115,658
    Dallas/Fort Worth Int’l. (2)      62          481,303       282,623      763,926
    Dane County Regional              10            6,781         3,440       10,221
    Denver Int’l.(2)                  35          339,602        50,457      390,059
    Detroit Metro.                    20          305,150       215,168      520,318
    Devils Lake Municipal              1            4,340         1,636        5,976
    Dillingham                         7          133,776       153,068      286,844
    Dougherty County                   1            8,304         7,227       15,531
    Eagle County Regional             20          432,905       356,729      789,634
    Elmira/Corning Regional
    (2)                               3            49,374        37,575       86,949
    Emmet County                      2            37,060         5,984       43,044
    Fairbanks Int’l. (3)              26          423,069       439,301      862,370
    Four Corners Regional (3)          3          100,718        73,956      174,674
    Friedman Memorial                 2            16,810        19,329       36,139
    Garden City Regional (2)           2           36,222        23,182       59,404
    GilletteͲCampbell County           2           39,484        30,549       70,033




www.oig.dhs.gov                                  40                                    OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security
    FY 2011 NDF Deployment Costs to Airports
                                                            Total          Total
                                    FTE      Estimated    Operational   Deployment
              Airport             Deployed     PC&B         Costs          Costs
    Grand Canyon National
    Park                            8           $93,811      $88,028      $181,839
    Greenville/Spartanburg          1             4,051            0         4,051
    Guam Int’l.                     1            10,465        9,028        19,493
    GulfportͲBiloxi Int’l.          10           18,645       20,031        38,676
    Gunnison Regional               5           114,601       55,212       169,813
    Gustavus                         4           73,650      106,495       180,145
    HartsfieldͲJackson Atlanta
    Int’l.                          20          196,121       104,906       301,027
    Hector Int’l.                    4            4,293         5,279         9,572
    Helena Regional                  1           19,038             0        19,038
    Hobby                           11          111,058        92,705       203,763
    Honolulu Int’l.                 41          753,442       707,877     1,461,319
    Imperial County                  1           44,637        30,146        74,783
    Ithaca Tompkins Regional         1            6,440         6,653        13,093
    JacksonͲEvers Int’l.            25           44,332        46,030        90,362
    Kahului                          1           50,276        52,201       102,477
    King Salmon                      8          157,650       152,465       310,115
    Kodiak                           1           13,949        15,015        28,964
    Kona Int’l.                      2            5,285         5,970        11,255
    Kotzebue                        10          275,871       258,382       534,253
    Lakeland Linder Regional         4           62,765        32,711        95,476
    Laramie Regional (4)             4           84,012        62,630       146,642
    Lea County Regional              5          102,110        68,690       170,800
    Liberal Municipal                1           45,674        24,092        69,766
    Lihue                           12          229,743       245,094       474,837
    Logan Int’l.                    33          161,214       209,901       371,115
    Los Angeles Int’l.              10          131,432        82,278       213,710
    Magic Valley Regional            5           55,519        39,415        94,934
    Mammoth Lakes (3)                7          267,374       262,897       530,271
    Martha’s Vineyard (2)           10          106,300       205,152       311,452
    McCook Regional                  1           14,601         7,301        21,902
    McCarran Int’l.                 75        2,892,032     1,623,522     4,515,554
    Meadows Field                    5          121,663        66,337       188,000
    Merced Municipal                 2           28,884        20,574        49,458




www.oig.dhs.gov                                41                                     OIG-13-14
                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
    FY 2011 NDF Deployment Costs to Airports
                                                              Total        Total
                                     FTE      Estimated     Operational Deployment
              Airport              Deployed     PC&B          Costs        Costs
    Middle Georgia Regional            1           $8,048       $5,268      $13,316
    Minneapolis/St. Paul Int’l.       25          169,275      102,090      271,365
    Mobile Regional                    2           56,122       28,894       85,016
    Molokai                            1           24,043         6,241      30,284
    Montrose Regional                  4          108,901       82,785      191,686
    Mudhole Smith                     4           119,553      130,412      249,965
    Myrtle Beach (2)                  20          362,607      210,259      572,866
    Nantucket Memorial                11          238,090      259,911      498,001
    Nashville Int’l.                  12           43,234       28,596       71,830
    Natrona County Int’l. (3)          9          114,085       82,054      196,139
    New Bedford Regional               2            4,723         5,243       9,966
    Newark Liberty Int’l. (2)         41       1,003,683       687,953    1,691,636
    Newport News/
    Williamsburg Int’l.               1           22,625         9,375       32,000
    Nome                              4          126,794       141,187      267,981
    North Bend Municipal (2)          2           37,438             0       37,438
    Palm Beach Int’l.                 6           87,509             0       87,509
    Palm Springs Int’l.              12          178,892       123,931      302,823
    Petersburg                        5           74,839        63,403      138,242
    Philadelphia Int’l.               6           85,176        64,316      149,492
    Plattsburgh Int’l.                1           18,633             0       18,633
    Portland Int’l.                  12           83,621        47,824      131,445
    Portland Int’l. Jetport           8           84,822        71,959      156,781
    Provincetown Municipal            3           81,024        54,144      135,168
    Pullman/Moscow Regional           1           27,898        10,993       38,891
    Reagan National                   4            2,430         6,060        8,490
    RenoͲTahoe Int’l.                12           39,673        29,948       69,621
    Richards Field                    1            5,767             0        5,767
    Riverton Regional (2)             2           16,328        13,444       29,772
    Roanoke Regional                  3            8,801        10,095       18,896
    Rutland (2)                       2           50,936        35,158       86,094
    San Diego Int’l. (3)             20          229,113        47,022      276,135
    San Luis County                   1            9,016             0        9,016
    SarasotaͲBradenton Int’l.         9          140,070        92,070      232,140
    Seattle/Tacoma Int’l. (4)        115       1,343,118       855,041    2,198,159




www.oig.dhs.gov                                 42                                    OIG-13-14
                                   OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
    FY 2011 NDF Deployment Costs to Airports
                                                               Total        Total
                                      FTEs     Estimated     Operational Deployment
    Airport                         Deployed     PC&B          Costs        Costs
    Sheridan County                    1           $16,100      $17,510      $33,610
    Sloulin Field                      1            15,089         7,767      22,856
    Southwest Florida Int’l. (2)       13          202,260       78,604      280,864
    Sweetwater County                  2            53,140       45,682       98,822
    T. F. Green (2)                    22           68,003       59,117      127,120
    Ted Stevens Anchorage
    Int’l.                            11          103,609        87,562       191,171
    TriͲCities                         5          148,928        60,214       209,142
    Venango Regional                   1           10,089         8,916        19,005
    Waynesville Regional               1           12,891        10,654        23,545
    Wiley Post/Will Rogers             5          171,153       150,471       321,624
    Worland Municipal (3)              3           47,147        32,849        79,996
    Yakutat                            2           63,542        80,730       144,272
    Yampa Valley Regional             15          355,469       272,727       628,196
    Yelland                            1           61,996        23,482        85,478
    Yellowstone                        6          169,821        74,335       244,156
    Yellowstone Regional               4           96,518        82,724       179,242
    Yuma Int’l.                        2           31,511        19,189        50,700
    TOTALS                                     $17,628,873   $12,760,906   $30,389,779




www.oig.dhs.gov                                  43                                      OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E
   Reasons for NDO Deployments to Airports
   FY 2009 NDO Deployments

                  Airport                  Days        Deployment Type
                                                   6        Special Events
    Albuquerque Int’l.                            14         Pilot Projects
    Anchorage Int’l.                          147        Seasonal Support
                                               31             Local Hiring
                                              118        Seasonal Support
    Aspen Pitkin County                        25           Project Reveal
    Atlanta Int’l.                             40            Pilot Projects
    Atlantic City Int’l.                           7   Equipment Support
    Augusta Regional                               9        Special Events
    Baltimore/Washington Int’l.                   21         Pilot Projects
    Barnstable                                 10        Seasonal Support
    Bert Mooney Airport                       145             Local Hiring
    Bethel Airport                            186             Local Hiring
                                               11                    VIPR
    Boise Airport                                  7    Expanded Services
    Boston Logan Int’l.                           70             Training
    Charlottesville/Albemarle                  57          Medical Issues
    Cherry Capital Airport                     70        Seasonal Support
    Cheyenne Regional                         145              Local Hiring
    Cincinnati/Northern Kentucky Int’l.        32           Inline Projects
    Cleveland Hopkins Int’l.                   16                  Training
    Cordova Municipal                         139        Seasonal Support
    Dallas Love Field                          13           Inline Projects
    Prudhoe Bay/Deadhorse Airport                 25    Expanded Services
    Dillingham Airport                            81     Seasonal Support
    Durango La Plata                              23        Project Reveal
    Eagle County Regional                     122        Seasonal Support
    Ely Airport                                73             Local Hiring
    Fairbanks Int’l.                          165        Seasonal Support
    Friedman Memorial Airport                     87     Seasonal Support




www.oig.dhs.gov                                   44                          OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   FY 2009 NDO Deployments

                   Airport                Days        Deployment Type
                                              78           Medical Issues
                                             150       Expanded Services
    GilletteͲCampbell County                 218              Local Hiring
    Glendive Dawson Community                182             SPP Support
    Airport                                      66    Expanded Services
                                                 92    Expanded Services
    Grant Int’l.                                 26          Local Hiring
                                                 61          Local Hiring
    Gunnison Crested Butte Regional          112        Seasonal Support
    Gustavus Airport                          81        Seasonal Support
                                             182             SPP Support
    Harve Airport                                65    Expanded Services
    Houston Airport                              14        Pilot Projects
    Indianapolis Int’l.                          31      BDO Operations
                                                 16          Local Hiring
    Juneau Int’l.                             93        Seasonal Support
    King Salmon Airport                       82        Seasonal Support
                                             186             SPP Support
    LewistownͲNez Perce County               181       Expanded Services
    Lihue Airport                             42             Local Hiring
    Mammoth Yosemite Airport                 127        Seasonal Support
                                              70             Local Hiring
    Martha’s Vineyard Airport                145        Seasonal Support
    Massena Int’l.                           104            Pilot Projects
    McCarran Int’l.                           14            Pilot Projects
                                              14            Pilot Projects
    Miami Int’l.                               8         BDO Operations
                                             187             SPP Support
    Miles City Airport                       159       Expanded Services
    Montrose Regional                        111        Seasonal Support
    Myrtle Beach Airport                     103        Seasonal Support
                                              62             Local Hiring
    Nantucket Memorial Airport               152        Seasonal Support
    Natrona Int’l.                            95             Local Hiring
    New Bedford Regional                      10           Special Events




www.oig.dhs.gov                                  45                          OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

   FY 2009 NDO Deployments

                  Airport                    Days       Deployment Type
    Nome Airport                                 367           Local Hiring
    Norfolk Int’l.                               93       Seasonal Support
    North Bend Airport                           90            Local Hiring
    Ogdensburg Int’l.                            14            Local Hiring
    Palm Beach Int’l.                            34       Seasonal Support
    Palm Springs Int’l.                         110       Seasonal Support
    Pellston Regional                            70       Seasonal Support
                                                  5          Special Events
    Pittsburgh Int’l. Airport                     7           Pilot Projects
    Port Columbus Int’l.                          6           Pilot Projects
    Provincetown Airport                        136       Seasonal Support
    Pullman/Moscow Regional                     104            Local Hiring
    Ralph Wien Memorial Airport                 367            Local Hiring
                                                 75       Seasonal Support
    Regional Southwest Florida Int’l.            43                Training
    Riverton Regional                            92            Local Hiring
    Rock Springs Sweetwater Airport             389            Local Hiring
    Rutland State Airport                       104         Medical Issues
    San Diego Int’l.                             32     Equipment Support
    San Luis Valley Regional                     61           Local Hiring
    SarasotaͲBradenton Int’l.                    84       Seasonal Support
                                                  4                   VIPR
    Seattle Tacoma Int’l.                         6         Crisis Response
                                                186            SPP Support
    Sidney Richland Int’l.                      228      Expanded Services
    Sitka Rockey Gutierrez Airport               95       Seasonal Support
                                                 10          Special Events
    T. F. Green State Airport                    49          Inline Projects
                                                  3          Special Events
    Tampa Int’l.                                  7                 Training
    Tulsa Int’l.                                 15           Pilot Projects
    Washington Dulles Int’l.                     41           Pilot Projects
    West Yellowstone Airport                    122       Seasonal Support
    Wiley Post/Will Rogers                      367             Local Hiring
                                                182            SPP Support
    Wokal Field/Glasgow Int’l.                   65      Expanded Services




www.oig.dhs.gov                                  46                            OIG-13-14
                            OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   FY 2009 NDO Deployments

                  Airport             Days       Deployment Type
    Wolf Point Int’l.                     182           SPP Support
    Worland Airport                       353            Local Hiring
    Yakutat Airport                       116            Local Hiring
    Yampa Valley Regional                119        Seasonal Support
                                          75          Medical Issues
    Yellowstone Regional                  64          Medical Issues




www.oig.dhs.gov                           47                            OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   FY 2010 NDO Deployments


                    Airport                  Days       Deployment Type
    Adak Airport                                 130            Local Hiring
    Albert J. Ellis Airport                      230            Local Hiring
    Albuquerque Int’l.                             7          Special Events
    Anchorage Int’l.                             147            Local Hiring
    Anchorage Int’l.                              10                Training
    Aspen Pitkin Airport                         135            Local Hiring
                                                  24            Local Hiring
    Athens/Ben Epps Airport                       70       Seasonal Support
    Atlanta Int’l.                                11                Training
    Augusta Regional                               9          Special Events
                                                  19                Training
    BaltimoreͲWashington Int’l.                    3     Equipment Support
    Barnstable Airport                            13          Special Events
    Bert Mooney                                   91            Local Hiring
                                                 401            Local Hiring
                                                  91       Seasonal Support
    Bethel Airport                                 3                Training
                                                  28     Equipment Support
    Boise Airport                                 19          Special Events
                                                 115            Local Hiring
                                                 112                Training
    Boston Logan Int’l.                           10     Equipment Support
    Bozeman Gallatin Field Airport                84            Local Hiring
    Brunswick Golden Isles Airport               122            Local Hiring
    Burlington Int’l.                             24            Local Hiring
    Charlottesville/Albemarle                   109          Medical Issues
    Cherry Capital Airport                       77             Local Hiring
                                                 98      Equipment Support
    Cincinnati/Northern Kentucky Int’l.          22                     VIPR
    Columbia Regional                            52             Local Hiring
                                                 37           Special Events
    Cordova Airport                              16                 Training
                                                 12       Expanded Services
    DallasͲFort Worth Int’l.                      3                 Training




www.oig.dhs.gov                                  48                            OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   FY 2010 NDO Deployments

                   Airport               Days        Deployment Type
    Denver Int’l.                               41            Local Hiring
    Detroit City Airport                        22               Training
    Dillingham Airport                          81      Seasonal Support
    Duluth Int’l.                           101           Medical Issues
                                            119         Seasonal Support
    Eagle County Regional                     7                  Training
    Elmira/Corning Regional                  25                  Training
                                            259               Local Hiring
    Ely Airport                               3                  Training
    Fairbanks Int’l.                        228               Local Hiring
                                             68           Medical Issues
    Four Corners Regional                    38               Local Hiring
    Friedman Memorial Airport               120               Local Hiring
    General Mitchell Int’l.                  42        Expanded Services
                                            521               Local Hiring
                                             35       Equipment Support
    GilletteͲCampbell County                  9                  Training
    Glendive Dawson Community                77              SPP Support
    Airport
    GogebicͲIron Airport                        85           Local Hiring
    Golden Triangle Regional                 16          Medical Issues
    Grant Int’l.                             65              Local Hiring
    GulfportͲBiloxi Int’l.                    9           Special Events
                                            111        Seasonal Support
    Gunnison Crested Butte Regional          60              Local Hiring
    Gustavus Airport                         73        Seasonal Support
    Havre Airport                            98             SPP Support
    Honolulu Int’l.                          94              Local Hiring
    Houston Hobby Airport                     4                 Training
    Indianapolis Int’l.                       4                 Training
    Jacksonville Int’l.                      41      Equipment Support
    Jamestown Regional                        5          Medical Issues
    Juneau Int’l.                            84        Seasonal Support
    Kahului Airport                         186         BDO Operations
    King Salmon Airport                      81        Seasonal Support
    Laramie Regional                         84              Local Hiring




www.oig.dhs.gov                                 49                           OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   FY 2010 NDO Deployments

                  Airport                    Days        Deployment Type
    LewistownͲNez Perce Airport                  91              SPP Support
    Liberal Airport                             358               Local Hiring
                                                 61        Expanded Services
    Lihue Airport                                 1                   Training
                                                 60               Local Hiring
    Los Angeles Int’l.                            4                   Training
                                                107        Expanded Services
    Magic Valley Regional                         9                   Training
    Mammoth Yosemite Airport                    293               Local Hiring
    Martha’s Vineyard Airport                    69         Seasonal Support
                                                    32        Medical Issues
    Massena Int’l.                                   5                Training
    Meadows Field Airport                           49         Inline Projects
    Memphis Airport                                 10            Local Hiring
    Merced Airport                              112           Medical Issues
    Merrill C. Meigs Field Airport                6       Equipment Support
                                                 49             Pilot Projects
                                                  3                   Training
    Miami Int’l.                                 79        Expanded Services
    Miles City                                   54              SPP Support
    Monroe Regional                             122           Medical Issues
                                                104         Seasonal Support
    Montrose Regional                            62       Equipment Support
                                                128         Seasonal Support
    Nantucket Memorial Airport                   65               Local Hiring
    Natrona Int’l. Airport                      310               Local Hiring
                                                156             Pilot Projects
    Newark Liberty Int’l.                        19          BDO Operations
    Newburgh, NY                                 19          BDO Operations
                                                599               Local Hiring
    Nome Airport                                 12            Special Events
                                                154               Local Hiring
                                                 40         Seasonal Support
                                                 10            Special Events
    North Bend Airport                            2                   Training




www.oig.dhs.gov                                     50                           OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   FY 2010 NDO Deployments

                  Airport                  Days        Deployment Type
    Oakland Int’l.                                 5                Training
    Ogdensburg Int’l.                          12            Medical Issues
    Orlando Int’l.                              8           Crisis Response
    Orlando Sanford Int’l.                     15           Crisis Response
    Oxnard Airport                             43            Medical Issues
                                               84         Seasonal Support
    Palm Beach Int’l.                           3                   Training
                                              100               Local Hiring
    Palm Springs Int’l.                        68          BDO Operations
    Panama City Bay Int’l.                    115        Expanded Services
    Pasco Tri Cities Airport                   97               Local Hiring
    Pellston Regional                          77               Local Hiring
    Pensacola Regional                         46            Inline Projects
    Petersburg James A. Johnson               118               Local Hiring
    Airport                                    62            Medical Issues
    Philadelphia Int’l.                        13                   Training
                                              167          Layered Security
                                               37       Equipment Support
    Phoenix Sky Harbor Int’l.                   3                   Training
                                               33       Equipment Support
    Pittsburgh Int’l. Airport                   3                   Training
    Port Columbus Int’l.                       63       Equipment Support
    Provincetown Airport                      140               Local Hiring
    Pullman/Moscow Regional                   131               Local Hiring
    Ralph Wien Memorial Airport               613               Local Hiring
    Regional Southwest Florida Int’l.          72         Seasonal Support
    RenoͲTahoe Int’l.                          22            Inline Projects
                                              171               Local Hiring
    Riverton Regional                         104            Medical Issues
    Rock Springs Sweetwater Airport           121               Local Hiring
    Rutland State Airport                     100            Medical Issues
                                               79               Local Hiring
                                               43       Equipment Support
    San Diego Int’l.                            3                   Training




www.oig.dhs.gov                                   51                           OIG-13-14
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   FY 2010 NDO Deployments

                    Airport                Days        Deployment Type
    San Jose Int’l.                               72               Training
    San Luis Regional                          77           Medical Issues
    San Luis Valley Regional                   55               Local Hiring
                                               90               Local Hiring
    Santa Barbara Airport                      22            Project Reveal
    Santa Maria Public Airport                 28       Equipment Support
    SarasotaͲBradenton Int’l.                  62         Seasonal Support
                                               15            Special Events
    Seattle Tacoma Int’l.                       8                  Training
    Sheridan County Airport                    82               Local Hiring
    Sidney Richland Int’l.                     48              SPP Support
                                              131               Local Hiring
    Southwest Georgia Regional                  3                  Training
    Spokane Int’l.                             12                  Training
                                               14            Special Events
    T. F. Green State Airport                  13          BDO Operations
    Tri Cities Regional                        47               Local Hiring
                                               10            Special Events
    Tucson Int’l.                              13                  Training
                                               35         Seasonal Support
    Washington Dulles Int’l.                    4                      VIPR
    Wendover Airport                          106               Local Hiring
                                              116         Seasonal Support
    West Yellowstone Airport                    2                  Training
    Wiley Post/Will Rogers                    599               Local Hiring
    Wokal Field/Glasgow Int’l.                 96              SPP Support
    Wolf Point Int’l.                          97              SPP Support
    Worland Airport                           226               Local Hiring
    Yampa Valley Regional                     168               Local Hiring
                                              104               Local Hiring
    Yellowstone Regional                          67        Medical Issues
    Yuma Int’l.                                   20            Local Hiring




www.oig.dhs.gov                                   52                           OIG-13-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   FY 2011 NDO Deployments

                Airport                     Days        Deployment Type
    Agana Guam Int’l.                           25       Expanded Services
                                                 6                     VIPR
    Albuquerque Int’l.                           7        Seasonal Support
                                                33       Expanded Services
    Anchorage Int’l.                           112        Seasonal Support
    Aspen Pitkin Airport                       111             Local Hiring
                                               163             Local Hiring
    Athens/Ben Epps Airport                     43           Project Reveal
    Augusta Regional                            10           Special Events
    BaltimoreͲWashington Int’l.                 27                 Training
    Barrow                                     134             Local Hiring
    Bethel Airport                             367             Local Hiring
                                                12           Special Events
    Boston Logan Airport                       120                 Training
    Buffalo Int’l.                              53       Expanded Services
    Canyonlands Field Airport                  131             Local Hiring
                                                22      Equipment Support
    Casper Natrona County Airport              193             Local Hiring
    Charlottesville/Albemarle                   64             Local Hiring
    Cheyenne Regional                           35          Medical Issues
    Chicago O’Hare Int’l.                       61             Local Hiring
    Cordova Airport                            309             Local Hiring
    DallasͲFort Worth Int’l.                    68       Expanded Services
    Dane County Regional                         3           Special Events
                                                15           Special Events
    Denver Int’l.                              127             Local Hiring
    Detroit City Airport                        74            Pilot Projects
    Devils Lake Regional                        14             Local Hiring
    Dillingham Airport                          89        Seasonal Support
    Eagle County Regional                      121             Local Hiring
    Eau Claire Airport                          21             Local Hiring
                                                59          Medical Issues
    Elmira/Corning Regional                    109             Local Hiring
    Ely Airport                                177             Local Hiring




www.oig.dhs.gov                                    53                          OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   FY 2011 NDO Deployments

                   Airport               Days       Deployment Type
    Fairbanks Int’l.                         241           Local Hiring
    Fort Leonard Wood Airport                 49           Local Hiring
                                              12         Medical Issues
    Four Corners Regional                    347           Local Hiring
    Friedman Memorial Airport                 42         Medical Issues
                                              63           Local Hiring
    Garden City Regional                      85         Medical Issues
    GilletteͲCampbell County                 106           Local Hiring
    Grand Canyon Airport                      72           Local Hiring
    Greenville Spartanburg Airport            20              Training
    Gulfport Biloxi Int’l.                    9         Crisis Response
    Gunnison Crested Butte Regional         121             Local Hiring
    Gustavus Airport                         80       Seasonal Support
    Hector Int’l.                             7     Equipment Support
    Helena Regional                         104           Local Hiring
                                             48     Equipment Support
                                             85            Local Hiring
    Honolulu Int’l.                          94          Special Events
                                             45      Expanded Services
    Houston Airport                          60            Local Hiring
    Hyannis                                  11          Special Events
    Imperial County Airport                 140            Local Hiring
    Ithaca Tomkins Regional                  30         Medical Issues
    Jackson Evers Airport                     9         Crisis Response
    Juneau Int’l.                           165             Local Hiring
    Kahului Airport                         171        BDO Operations
    King Salmon Airport                      90       Seasonal Support
    Kodiak Airport                           45             Local Hiring
    Kona at Keyhole                           7                    VIPR
    Lakeland Linder Regional                 62             Local Hiring
    Laramie Regional                        316             Local Hiring
    Lea County Regional                      88             Local Hiring
    Liberal Airport                         169             Local Hiring
    Lihue Airport                            87          Project Reveal
    Los Angeles Int’l.                       43      Expanded Services




www.oig.dhs.gov                              54                            OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   FY 2011 NDO Deployments

              Airport                     Days       Deployment Type
    Mammoth Yosemite Airport                  373            Local Hiring
                                               11         Special Events
    Martha’s Vineyard Airport                 139            Local Hiring
    Masena Int’l.                              28         Medical Issues
    McCarran Int’l.                           184            Local Hiring
    McCook Ben Nelson Regional                 69            Local Hiring
    Meadows Field Airport                     158            Local Hiring
    Merced Airport                             61         Medical Issues
    Middle Georgia Regional                    33            Local Hiring
    Minneapolis                                32                Training
    Mobile Regional                            96            Local Hiring
    Molokai Airport                           112            Local Hiring
    Montrose Regional                         115            Local Hiring
    Myrtle Beach Airport                      154            Local Hiring
                                                4                Training
                                               75      Seasonal Support
    Nantucket Memorial Airport                139            Local Hiring
    Nashville Int’l.                           15         Inline Projects
    New Bedford Regional                       11         Special Events
                                              251          Pilot Projects
    Newark Liberty Int’l.                      48                Training
    Newport News/Williamsburg                  82       BDO Operations
    Nome Airport                              134            Local Hiring
                                               31            Local Hiring
    North Bend Airport                        133     Expanded Services
    Palm Beach Int’l.                          78      Seasonal Support
    Palm Springs Int’l.                        84      Seasonal Support
                                               45            Local Hiring
    Pellston Regional                         130         Medical Issues
    Petersburg James A. Johnson               157            Local Hiring
    Airport
    Philadelphia Int’l.                       63      Expanded Services
    Plattsburgh Int’l.                        92             Local Hiring
    Portland Int’l.                           31          Inline Projects
    Portland Int’l. Jetport                   49          Inline Projects
    Provincetown Airport                     153             Local Hiring




www.oig.dhs.gov                               55                            OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   FY 2011 NDO Deployments

                  Airport                   Days        Deployment Type
    PullmanͲMoscow Regional                     90           Medical Issues
    Punta Gorda Airport                        109       Expanded Services
    Ralph Wien Memorial Airport                134             Local Hiring
    RenoͲTahoe Int’l.                           14                Training
    Riverton Regional                           71             Local Hiring
    Roanoke Regional                            14                Training
    Rock Springs Sweetwater Airport            120             Local Hiring
    Rutland State Airport                      180             Local Hiring
                                                45      Equipment Support
                                                72                  Training
    San Diego Int’l.                           166             Local Hiring
    San Luis Obispo County Regional             42          Medical Issues
    SarasotaͲBradenton Int’l.                   70        Seasonal Support
                                                21            Pilot Projects
                                                62      Equipment Support
    Seattle Tacoma Int’l.                      163             Local Hiring
    Sheridan County Airport                     74             Local Hiring
    Sloulin Field Int’l.                        58             Local Hiring
                                                23       Expanded Services
    Southwest Florida Int’l.                    92        Seasonal Support
    Southwest Georgia Regional                  42             Local Hiring
    St. Thomas Cyril King Airport              128             Local Hiring
                                                12           Special Events
    TFG Memorial State Airport                  21         BDO Operations
    Tri Cities Airport                         174             Local Hiring
    Twin Falls City County                      60       Expanded Services
    Venango Regional                            49             Local Hiring
    Washington Dulles Int’l.                     3           Special Events
    West Yellowstone Airport                   126        Seasonal Support
                                                71          Medical Issues
    Worland Airport                            186             Local Hiring
    Yakutat Airport                            294             Local Hiring
    Yampa Valley Regional                      121             Local Hiring
    Yellowstone Regional                       260             Local Hiring
    Yuma Int’l.                                 78             Local Hiring




www.oig.dhs.gov                                    56                          OIG-13-14
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Appendix F
   Total NDF Operational Costs for Alaska
     Fiscal Year 2009
                              Meals and                                   Rental        Total
            Airport*          Incidental      Lodging        Airfare     Vehicle      Operational
                               Expenses         Costs         Costs      and Fuel       Costs
      Bethel (3)                 $213,593      $340,642      $63,774      $36,944       $654,953
      Boundary Bay (2)             35,571        54,469         9,489            0         99,529
      Dillingham                   30,627        45,831        15,064       3,231          94,753
      Fairbanks Int’l.             18,066        45,144         7,002       5,701          75,913
      Gustavus                     29,600        42,625         9,576       3,606          85,407
      King Salmon                  22,386        80,025        11,122       5,127        118,660
      Kotzebue (2)                191,548       283,012        41,753         657        516,970
      Mudhole Smith                 9,594        11,760         3,951       8,937          34,242
      Nome Airport (2)             86,245        91,700        20,520      22,710        221,175
      Prudhoe Bay/
      Deadhorse                    2,200         4,450       1,570              0            8,220
      Sitka Airport               12,640       18,877        3,196         4,010            38,723
      Ted Stevens
      Anchorage Int’l.           432,230      667,118       94,032        51,840        1,245,220
      Yakutat                      8,816       11,095        1,872         7,258            29,041
      Wiley Post/
      W. Rodgers (2)             227,768      225,498       63,412         8,314          524,992
              TOTAL           $1,320,884 $1,922,246       $346,333      $158,335       $3,747,798
     *Numbers in parentheses indicate the number of deployments at that particular airport; airports
     without numbers represent one deployment.


     Fiscal Year 2010
                              Meals and                                   Rental        Total
            Airport           Incidental      Lodging        Airfare     Vehicle      Operational
                               Expenses        Costs          Costs      and Fuel       Costs
      Adak Island                 $21,251       $25,124      $13,392       $3,412        $63,179
      Bethel (4)                  273,754       421,326        69,169      39,903        804,152
      Boundary Bay (2)                   0            0              0           0              0
      Dillingham                   36,437        51,708        10,863       6,378        105,386
      Fairbanks Int’l.            172,295       221,310        74,780      35,890        504,275
      Gustavus                     25,773        39,380         7,133       5,541          77,827
      King Salmon                  44,226        91,200        12,180       5,552        153,158
      Kotzebue (3)                423,045       405,537      126,290             0       954,872
      Mudhole Smith                 5,390         6,460         4,608         159          16,617
      Nome Airport (4)            229,474       224,485        64,171      43,786        561,916
      Petersburg James A.
                                   26,497        11,949        10,834        8,984          58,264
      Johnson (2)
      Ted Stevens
                                  332,845       512,230        68,833       55,469        969,377
      Anchorage Int’l.
      Wiley Post/
                                  313,999       359,648        92,234       26,501        792,382
      W. Rodgers (3)
              TOTAL            $1,904,986    $2,370,357     $554,487      $231,575     $5,061,405




www.oig.dhs.gov                                           57                                           OIG-13-14
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
     Fiscal Year 2011
                             Meals and                                Rental       Total
            Airport          Incidental     Lodging      Airfare     Vehicle     Operational
                              Expenses        Costs       Costs      and Fuel      Costs
      Bethel (2)                $299,892     $390,890    $78,277      $27,565      $796,624
      Boundary Bay (2)             7,528        8,393       5,783       2,040         23,744
      Dillingham                  62,049       68,820      16,242       5,956       153,067
      Fairbanks Int’l. (3)       153,678      233,935      35,093      16,593       439,299
      Gustavus                    23,550       31,524      46,700       4,720       106,494
      King Salmon                 60,924       72,485      14,932       4,123       152,464
      Kodiak                       5,340        6,204       1,981       1,490         15,015
      Kotzebue                   128,307       96,353      33,721            0      258,381
      Mudhole Smith (2)           62,685       42,096      15,206      10,422       130,409
      Nome Airport                68,040       47,574      14,038      11,534       141,186
      Petersburg James A.
      Johnson                    30,320       11,831         9,474     11,777         63,402
      Ted Stevens
      Anchorage Int’l. (2)       27,040       45,824         9,682      5,015         87,561
      Yakutat (2)                27,342       31,526         6,105     15,755         80,728
      Wiley Post/W.
      Rodgers                    62,462        71,720      16,288           0        150,470
      TOTAL                  $1,019,157    $1,159,175    $303,522    $116,990     $2,598,844




www.oig.dhs.gov                                         58                                     OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix G
   Alaska Airports Using NDO Support Most Frequently for Hiring
   Shortages
           FY 2009
                                                                          Number
                   Airport         Start Date        End Date      Days
                                                                          of FTEs

             Wiley Post/Will        5/8/2009         1/30/2010     220      6
             Rogers (Barrow)       8/25/2008          5/9/2009     147      5
                                   5/10/2009          1/3/2010     145      12
                   Bethel
                                   3/30/2009          5/9/2009      41      8
                                    5/8/2009         1/30/2010     220      1
                  Kotzebue
                                   5/15/2007          5/9/2009     147      6
                                    5/8/2009         1/30/2010     220      4
                   Nome
                                   5/15/2007          5/9/2009     147      13
                   Yakutat          6/7/2009         9/30/2009     116      1

           FY 2010
                                                                          Number
                   Airport         Start Date        End Date      Days
                                                                          of FTEs

                  Anchorage         5/2/2010         9/25/2010     147      54
                                   1/30/2010         9/30/2010     244      6
                   Barrow          9/30/2010         5/21/2011     234      5
                                    5/8/2009         1/30/2010     121      7
                                    1/3/2010         9/25/2010     266      7
                   Bethel          5/10/2009          1/3/2010      94      8
                                   8/22/2010          4/7/2011      41      9
                                   9/30/2010          6/4/2011     248      10
                  Kotzebue         1/30/2010         9/30/2010     244      7
                                    5/8/2009         1/30/2010     121      4
                                   1/30/2010         9/30/2010     244      5
                   Nome            9/30/2010         5/21/2011     234      4
                                    5/8/2009         1/30/2010     121      2




www.oig.dhs.gov                                 59                               OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
           FY 2011
                                                                         Number of
                   Airport        Start Date        End Date      Days
                                                                           FTEs

                   Barrow        5/20/2011          9/30/2011     134       5
                                 8/22/2010           4/7/2011     188       9
                   Bethel
                                  4/6/2011          10/1/2011     179       9
                  Fairbanks      5/20/2011          9/30/2011     134       10
                  Kotzebue       5/20/2011          9/30/2011     134       10
                    Nome         5/20/2011          9/30/2011     134       4
                                 12/13/2010         6/30/2011     200       1
                  Yakutat
                                 6/29/2011          9/30/2011      94       1




www.oig.dhs.gov                                60                             OIG-13-14
                     OFFICE OF INSPECTOR GENERAL
                         Department of Homeland Security


   Appendix H

                  ALASKA HUB AND SPOKE AIRPORTS
                           Anchorage International

                                   Bethel
                                 Dillingham
                            Adak Naval Air Station
                                King Salmon
                                   Homer
                                Kodiak State
                                    Kenai

                           Fairbanks International

                            Prudhoe Bay/Deadhorse
                   Will Rogers/Wiley Post Memorial (Barrow)
                        Ralph Wilen Memorial (Kotzebue)
                                     Nome
                                    Valdez
                     Merle K. “Mudhole” Smith (Cordova)

                             Juneau International

                                   Yakutat
                                   Gustavus
                               Sitka Municipal
                                  Petersburg
                           Ketchikan International
                                   Wrangell




www.oig.dhs.gov                      61                       OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix I
   Alaska’s Retention Initiatives
   Alaska Screening Force

   In August 2005, ASF was established to address the internal challenges of Alaska’s local
   hiring and to lessen the need for NDF TSO deployments to Alaska. ASF was responsible
   for staff coverage at all airports in Alaska throughout the year, while NDF TSO support
   would be needed only for staffing shortages during seasonal surges in airport activities.
   Each hub was to hire above its FTE allocation; however, Anchorage was the only hub
   able to hire sufficient FTEs to cover hardͲtoͲfill, yearͲround requirements. Fairbanks and
   Juneau continued to use NDF for their hardͲtoͲfill positions at remote spoke airports.

   FSDs in Alaska, along with a TSA headquarters official, agreed that if Fairbanks and
   Juneau were unable to hire sufficient TSOs at their hubs for vacant spoke positions, then
   the Anchorage FSD would hire for these positions and provide ASF support to the other
   two hubs. The Anchorage FSD was not able to hire sufficient TSOs to support the three
   hubs, causing NDO to continue to provide yearͲround support for Fairbanks and
   Juneau’s spoke airports.

   According to TSA officials, challenges associated with ASF operations were the airports’
   inability to hire sufficient staff, excessive operational costs, and disagreement as to how
   the program should function.

   In July 2008, FSDs from Alaska hub airports, in conjunction with an NDO official, agreed
   to eliminate ASF, and that NDO would provide support to all FSDs in Alaska. The process
   for requesting NDF support would be through NDO, with deployment authority
   remaining within OSO.

   Recruitment and Retention Incentives

   TSA Management Directive (MD) 1100.57Ͳ3 allows TSA to use recruitment and retention
   incentives if there is difficulty filling positions with qualified employees. According to the
   MD, TSA can pursue groups of similar positions that have been hard to fill in the past or
   are unlikely to be filled in the future, and offer a recruitment incentive to employees.

   In 2007, Anchorage, Fairbanks, and Juneau submitted proposals requesting that a 25
   percent recruitment and retention incentive be established for employees assigned to
   Alaska’s hub airports. The incentives were intended for TSOs, LTSOs, Master TSOs,
   Expert TSOs, and STSOs.



www.oig.dhs.gov                                 62                                         OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   In September 2007, TSA approved the proposed 25 percent retention incentives for
   TSOs in Alaska for 16 of the 19 spoke airports. The approval was based on factors such
   as the remoteness of areas in Alaska, aboveͲaverage food prices, high housing costs, and
   transportation expenses. The retention incentives did not include specific timeframes in
   which employees could receive the incentives. In May 2009, the 25 percent retention
   incentive was extended to Transportation Security Managers working in Alaska.

   As of June 2012, TSA was conducting a review of all airports with authority to grant
   retention and recruitment incentives. The objective is to determine whether to
   continue current incentives, decrease the incentive amounts, or discontinue the
   incentives program.

   In 2007, the Fairbanks FSD requested a 15 percent retention incentive for TSOs who
   volunteered for 2Ͳweek rotational assignments from Fairbanks to Prudhoe
   Bay/Deadhorse airport for 1 year. According to the official, TSOs had become reluctant
   to accept voluntary rotational assignments to Prudhoe Bay/Deadhorse due, in part, to
   extreme weather conditions and the high cost of living. Although the 2Ͳweek rotation
   was primarily voluntary, TSOs were directed to deploy to Prudhoe Bay/ Deadhorse to
   staff vacant positions if they did not volunteer. TSA approved this request in November
   2007.

   The following table shows the percentages of recruitment and retention incentives
   allocated to select Alaskan airports:




www.oig.dhs.gov                               63                                          OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Alaska Recruitment and Retention Incentives

   Hub Airports                Airport             Retention Incentive
   Anchorage    Adak Naval Air Station                     25%
                Bethel                                     25%
                Kodiak State Airport                       25%
                King Salmon                                25%
                Dillingham                                 25%
   Fairbanks    Fairbanks International                    15%
                Will RogersͲWiley Post Memorial            25%
                Cordova (Merle K. “Mudhole” Smith)         25%
                Nome                                       25%
                Kotzebue (Ralph Wilen Memorial)            25%
   Juneau       Juneau International                       25%
                Ketchikan International                    25%
                Petersburg                                 25%
                Sitka Municipal                            25%
                Wrangell                                   25%
                Yakutat                                    25%

   Fairbanks Signing Bonus

   In February 2012, the Fairbanks FSD proposed a $3,000 signing bonus to attract
   qualified TSO candidates to its spoke airports for at least 1 year due to hiring difficulties
   in remote locations. A Recruitment Incentive Service Agreement had to be signed
   before the candidate reported for duty and had to be specific to the position and
   geographic location for which accepted.

   TSA officials decided to initiate the bonus incentive on the next available candidate for
   hire. However, the officials later decided to put this initiative on hold pending further
   evaluation of whether the use of recruitment incentives at this monetary level would
   have any impact on officer retention, and the feasibility of using this option given the
   current agency budgetary constraints.




www.oig.dhs.gov                                 64                                         OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix J
   NDF Support Request Approval Process
   NDO has established the following guidelines for FSDs who need NDF support:

   Step 1: FSDs submit NDO SRFs through NDO’s Field Resources iShare site at least 14
   days prior to the requested deployment start date to allow sufficient time to complete
   the approval process. The SRF should be as detailed as possible in describing the
   airport’s need for support, such as seasonal support (the methods airports use to
   calculate the number of additional TSOs required), local hiring shortfalls (a description
   of plans and timelines to resolve hiring deficiencies), and equipment support (addresses
   scheduling and training requirements for equipment installations and/or upgrades).
   FSDs requesting NDF support should be aware of the following:

       a. Although NDF TSOs are dualͲfunction officers, they are not certified on all types
          of equipment. Therefore, the SRF should include specific details about any
          equipment certifications desired.
       b. Staffing support requests are limited by NDF availability during the requested
          timeframe.
       c. The number of NDF TSOs requested or those with the appropriate equipment
          certifications may not be available. In such instances, training NDF TSOs on
          specific equipment may be necessary.

   Step 2: NDO receives and forwards requests for support to the appropriate OSO staff
   for review, including such offices as SSS, OHC, Operational Improvement Branch, and
   Behavioral Detection Office.

   Step 3: Each SRF is evaluated from a costͲbenefit perspective to ensure the optimal use
   of limited resources. SSS reviews airports’ Staffing Allocation Model and FTE burn rate
   to determine whether airports are appropriately using all personnel resources. OHC
   reviews SRFs to evaluate whether airports are adequately pursuing all local hiring
   options. The Operational Improvement Branch (OIB) reviews requests for equipment
   support OIB to evaluate the technical basis for requests. The Behavioral Detection
   Office reviews requests for BDOs.

   Step 4: RDs consider each airport’s request and recommendations from the OSO staff
   to make the final determination to approve, modify, or disapprove the request.

   Step 5: NDO notifies the requesting airport of the RD’s decision. If the request is
   approved, an NDO Deployment Analyst provides the requesting FSD with the name and



www.oig.dhs.gov                               65                                       OIG-13-14
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   contact information of the NDO Area Coordinator/Assistant Area Coordinator (AC/AAC).
   If the request for support is disapproved, no further NDO action is required.

   Step 6: An NDO AC/AAC contacts the requesting FSD’s Point of Contact to confirm the
   details of the deployment.

   Step 7: NDO considers all approved requests in its deployment plans to ensure the
   appropriate allocation of personnel to the requesting airport.

   Step 8: NDO issues Deployment Orders to all affected NDF TSOs.

   Step 9: Travel and lodging arrangements are made based on the Deployment Orders
   distributed by NDO.

   Step 10: The NDF DPOC for each deployment is notified and receives copies of all
   itineraries.

   Step 11: Deployed NDF TSOs receive their work schedule either prior to or upon their
   arrival at the airport.




www.oig.dhs.gov                              66                                        OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix K
   OIG Analysis of Recommendations from The Transportation
   Security Administration’s National Deployment Force,
   OIGͲ08Ͳ49, April 20089
   Recommendation #1: Implement a financial management system capable of tracking
   and reporting on all costs related to National Deployment Force operations. At a
   minimum, the financial management system should include the number of
   Transportation Security Officers (TSOs) requested, salary and benefit costs, travel and
   per diem costs for each TSO, and the deployment duration.

   TSA Response Summary: TSA’s OSO NDO developed a financial management tracking
   and reporting system, called Post Deployment Summary (PDS) reports, that addresses
   OIG’s recommendation. PDS reports capture all costs, such as salary and benefits,
   travel, per diem, and deployment duration, associated with the number of NDF TSOs
   requested.

   OIG’s 2012 Analysis: We analyzed TSA’s PDS reports and NDO financial data from FYs
   2009, 2010, and 2011. We also examined deployment expenditure information
   contained in NDO’s financial database.

   NDO financial records contained information such as number of TSOs deployed, PC&B,
   travel and lodging expenditures, meals and incidental expenses, and total deployment
   costs. PDS reports are the primary tools used to document deployment expenses and
   are completed after each deployment. The expenditures identified in PDS reports are
   used to update the NDO financial database. We concluded that NDO has developed a
   financial management system capable of tracking and reporting all costs associated with
   NDF operations.

   Recommendation #2: Establish procedures to ensure that (1) all guidance provided by
   the Office of Human Capital (OHC), Screening Optimization Office (SOO), OSO, and
   other offices is validated and incorporated into the deployment analysis process; (2) a
   costͲbenefit analysis is conducted and documented for all requests for deployment;
   and (3) the final disposition of the request is documented and communicated to
   appropriate staff.




   9
    Recommendation 1 was closed April 30, 2008. Recommendations 2 through 6 were closed September
   26, 2008.


www.oig.dhs.gov                                  67                                          OIG-13-14
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   TSA Response Summary: OSO NDO implemented a deployment analysis process that
   engages stakeholders, incorporates cost considerations, includes relevant guidance from
   other offices, and documents and communicates final deployment decisions. This
   process requires that all requests for NDF support be evaluated by OHC and OSO’s
   WUG, whose input is provided to RDs for consideration prior to their final decision to
   approve, disapprove, or modify such requests.10 The status of NDF support requests is
   then documented and communicated to the requesting FSD. These procedures are also
   documented in a TSA draft directive that details each step in the process.

   OIG’s 2012 Analysis: We assessed NDO’s SRF to ensure that all guidance provided by
   OHC, SOO, OSO, and other offices was incorporated. We observed NDO staff processing
   SRFs and interviewed airport, OSO, and NDO staff concerning their knowledge of the
   SRF approval process

   We concluded that NDO has established and documented procedures in the NDO FSD
   Guide, dated December 2011, which describes a standardized SRF approval process and
   instructions that each form be evaluated from a costͲbenefit perspective. We also
   concluded that the final disposition of requests for support are documented and
   communicated to NDO and OSO personnel through TSA’s iShare database. In addition,
   we determined that airport and NDF personnel understood the process for requesting
   and deploying NDF staff.

   Although TSA developed and implemented measures to satisfy the recommendation,
   we found during this followͲup review that consistently conducting and documenting
   costͲbenefit analyses could strengthen the NDO deployment decisionͲmaking process.

   Recommendation #3: To improve transparency in the process for making deployment
   assignments, develop and communicate the selection criteria to TSOs and other staff
   as appropriate.

   TSA Response Summary: In February 2007, OSO NDO communicated the assignment
   selection criteria to NDF TSOs, FSDs, and other staff via the NetHub broadcast
   messaging system. Additionally, the July 2007 NDF Handbook states that NDO uses the
   following criteria to determine deployments:
       x The nature of the request (i.e., seasonal demands, local hiring, special security
           events, etc.);
       x The situation and mission dictate specific deployment needs, such as—
           o the number of positions (STSOs, LTSOs, etc.), and number of male/female
               officers;

   10
        Regional Directors were identified as Area Directors during our previous review.



www.oig.dhs.gov                                          68                                OIG-13-14
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           o training and/or skills necessary to complete the mission; and
           o deployable officers available at the time of deployment.

   To the extent possible, deployment opportunities will be fairly and equitably assigned.
   Officers will normally be rotated among those with the longest deployment duration at
   one location.

   The NDO Operations Directive, distributed to all FSDs in June 2008, details the criteria by
   which NDF deployment opportunities are assigned. NDO plans to include the NDF TSO
   assignment selection criteria in the NDO Operations Directive, expected to become final
   in late April 2008. Finally, NDO will also post the selection criteria to the NDF SharePoint
   site and announce the posting to NDF TSOs.11

   OIG’s 2012 Analysis: We assessed NDO’s guidance and criteria relating to the
   deployment of NDF, interviewed NDF TSOs concerning their knowledge of the selection
   process, and observed the process by which NDO staff select available NDF TSOs for
   deployments.

   We concluded that TSA developed deployment selection criteria in accordance with the
   guidance cited above. We also concluded that TSA has improved transparency in
   making deployment decisions by communicating the selection criteria to NDF TSOs and
   other staff using its iShare website, which describes the deployment process and allows
   NDF TSOs to view their placement on a deployment list. Deployment information is also
   communicated by using TSA’s NetHub broadcast messaging system, emails, and
   formal/informal NDO meetings.

   Recommendation #4: Develop, implement, and document a decisionͲmaking process
   for local hiring deployment requests that includes, at a minimum, an assessment of
   actions taken by the FSD to resolve staffing shortfalls, estimated NDF costs for the
   deployment, and an assessment of alternative solutions.

   TSA Response Summary: NDO implemented a deployment analysis and decisionͲ
   making process that engages stakeholders, considers actions already taken by FSDs,
   estimates deployment costs, and assesses alternative solutions. This process is
   consistently applied to all major NDF TSO requests, including those intended to resolve
   staffing shortfalls, and will be included in the NDO Operations Directive, expected to
   become final in late April 2008. This procedure was distributed to FSDs via the NetHub


   11
     The NDO Operations Directive and NDO Handbook have been incorporated into TSA’s current operating
   procedures, NDO Handbook for NDF Officers, NDO FSD Guide, and NDO Transportation Security Officer
   Volunteers (TSOV) Guide. Also, SharePoint is currently TSA’s iShare website.


www.oig.dhs.gov                                    69                                           OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   broadcast system in January 2007. The NDO Handbook, distributed to all FSDs in June
   2008, addresses specific requirements that apply when a request for support is due to a
   staffing shortfall.

   OIG’s 2012 Analysis: We reviewed the approval process for all NDO deployment
   requests, including SRFs for local hiring shortages, examined how NDF estimates costs
   for these deployments, and interviewed FSDs and OHC staff to evaluate actions
   considered when resolving hiring shortfalls.

   Our examination of SRFs submitted for local hiring shortfalls disclosed descriptions of
   plans, timelines, and assessments to resolve hiring deficiencies. An NDO official
   explained that all local hiring requests are reviewed by OHC, which validates that
   airports have updated their personnel needs, provides a snapshot of the current hiring
   pipeline for airports, and estimates dates for possible candidates to be hired. All SRFs
   we reviewed had estimated costs to support deployment requests.

   Although we concluded that had TSA developed and implemented measures to satisfy
   the intent of Recommendation 4, we found during this followͲup review that
   consistently conducting and documenting assessments of alternative solutions to hiring
   shortages could enhance NDO’s deployment decisionͲmaking process.

   Recommendation #5: Provide all FSDs with standard operating procedures, NDO
   handbooks, and all available Internet resources.

   TSA Response Summary: Through its SharePoint site and NetHub broadcast messages,
   TSA NDO has provided FSDs, NDF TSOs, and other stakeholders with access to the NDO
   Handbook, NDF TSO assignment selection guidelines, and NDF support decisionͲmaking
   criteria. OSO will finalize and distribute the NDO Operations Directive to all FSDs and
   stakeholders when it becomes final in April 2008 and plans to include the NDO
   Handbook and other standard procedures. This communication will be used to
   emphasize the availability of NDO/NDF information at the NDF SharePoint site, which
   currently provides stakeholders with access to the handbook, TSO location list, and the
   Support Request Form. The NDO FSD Guide, which provides guidance for NDO
   operations, was issued to all FSDs in June 2008.

   OIG’s 2012 Analysis: We interviewed FSDs and NDF TSOs concerning their familiarity
   with SOPs. NDO personnel demonstrated the various communicative resources used to
   distribute SOP information. We observed the NDO iShare site, which grants access to
   airport and TSO staff to view SOPs online. We also observed the NDO NetHub broadcast
   message system, which disseminates information such as updated SOPs. We also
   observed hardcopies of the NDO FSD Guide in airport management offices.



www.oig.dhs.gov                               70                                       OIG-13-14
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
   We concluded that the NDO Handbook for NDF Officers, NDO FSD Guide, NDO TSOV
   Guide, and other internet resources have been distributed to FSDs, NDF TSOs, and other
   TSA personnel requiring this information. FSDs and NDF TSOs were knowledgeable
   about the contents of the SOPs and their accessibility. NDF TSOs informed us that they
   received hardcopies of the NDF Handbook for Officers upon graduation from the
   academy and usually carried it while deployed. Both FSDs and NDF TSOs said they were
   familiar with the iShare site and its contents, as they frequently visit the site to carry out
   their dayͲtoͲday responsibilities.

   Recommendation #6: Establish a process to ensure that the NDO Handbook includes
   current policies, procedures, and guidelines for all NDO operations.

   TSA Response Summary: NDO and other stakeholders review the NDF Handbook
   annually in May/June to ensure that it contains current and relevant guidance. This
   review process will be documented in the upcoming NDO Operations Directive expected
   to become final in April 2008. The NDO FSD Guide specifies that NDO will annually
   update the NDO Handbook with officer input and participation. The handbook also
   specifies that an NDO TSO’s responsibility is to participate in updating the NDO
   Handbook by submitting recommendations for process improvements. Additionally,
   NDO ensures that other relevant stakeholders are engaged as part of the review
   process.

   OIG’s 2012 Analysis: We reviewed TSA guidelines pertaining to NDO SOP updates and
   interviewed NDO managers and members of the TSA Handbook Committee concerning
   their strategies to ensure continuous SOP updates. We also interviewed NDF TSOs at
   select locations to verify that updated information was communicated to affected
   personnel.

   The NDO FSD Guide indicated that SOPs must be updated and published with NDF TSO
   input and participation. In March 2012, the Chairman of the Handbook Committee that
   revised the most current version of the handbook, dated December 2011, informed us
   that the committee included TSOs, LTSOs, and DPOCs. Also, according to the Chairman,
   the committee solicited and received input from airport staff. The solicitation was
   posted on NDO’s home page and generated numerous suggestions to improve NDO
   operations. NDF TSOs confirmed that they were aware of NDF handbook updates.
   Some TSOs recalled being asked for input, and others were aware of an officers’ survey
   and suggestion option on their TSA home page.

   We concluded that NDO has established a process to ensure that NDO SOPs include
   current policies and guidelines for NDO operations and that procedures are in place to
   communicate updated handbook information to affected personnel. We confirmed that




www.oig.dhs.gov                                 71                                         OIG-13-14
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
   the NDO FSD Guide and NDO Handbook for NDF Officers were last updated December
   2011. We also confirmed that the NDO TSOV Guide, originally included in the NDO
   Handbook, was published as a separate SOP in December 2011.




www.oig.dhs.gov                           72                                   OIG-13-14
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix L
   Major Contributors to This Report
   Deborah L. OuttenͲMills, Acting Assistant Inspector General for Inspections
   Jacqueline Simms, Lead Inspector
   Tatyana Martell, Senior Inspector
   Megan Thompson, Inspector
   Rahne Jones, Inspector




www.oig.dhs.gov                               73                                 OIG-13-14
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix M
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   TSA Administrator
   DHS Audit Liaison
   TSA Audit Liaison
   Director of Local Affairs, Office of Intergovernmental Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                74                          OIG-13-14
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
